<html>
<title> - EFFORTS TO DETERMINE THE STATUS OF IRAQI WEAPONS OF MASS DESTRUCTION AND RELATED PROGRAMS</title>
<body><pre>[Senate Hearing 108-678]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-678
 
 EFFORTS TO DETERMINE THE STATUS OF IRAQI WEAPONS OF MASS DESTRUCTION 
                          AND RELATED PROGRAMS

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 28, 2004

                               __________

         Printed for the use of the Committee on Armed Services


                     U.S. GOVERNMENT PRINTING OFFICE
96-675 PDF                 WASHINGTON DC:  2004
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

JOHN McCAIN, Arizona                 CARL LEVIN, Michigan
JAMES M. INHOFE, Oklahoma            EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
WAYNE ALLARD, Colorado               JOSEPH I. LIEBERMAN, Connecticut
JEFF SESSIONS, Alabama               JACK REED, Rhode Island
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
JOHN ENSIGN, Nevada                  BILL NELSON, Florida
JAMES M. TALENT, Missouri            E. BENJAMIN NELSON, Nebraska
SAXBY CHAMBLISS, Georgia             MARK DAYTON, Minnesota
LINDSEY O. GRAHAM, South Carolina    EVAN BAYH, Indiana
ELIZABETH DOLE, North Carolina       HILLARY RODHAM CLINTON, New York
JOHN CORNYN, Texas                   MARK PRYOR, Arkansas

                    Judith A. Ansley, Staff Director

             Richard D. DeBobes, Democratic Staff Director

                                  (ii)

  




                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

 Efforts to Determine the Status of Iraqi Weapons of Mass Destruction 
                          and Related Programs

                            january 28, 2004

                                                                   Page

Kay, Dr. David, Former Special Advisor to the Director of Central 
  Intelligence on Strategy Regarding Iraqi Weapons of Mass 
  Destruction Programs...........................................     7

                                 (iii)


 EFFORTS TO DETERMINE THE STATUS OF IRAQI WEAPONS OF MASS DESTRUCTION 
                          AND RELATED PROGRAMS

                              ----------                              


                      WEDNESDAY, JANUARY 28, 2004

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:05 a.m., in 
room SD-106, Dirksen Senate Office Building, Senator John 
Warner (chairman) presiding.
    Committee members present: Senators Warner, McCain, Inhofe, 
Roberts, Allard, Sessions, Collins, Ensign, Dole, Cornyn, 
Levin, Kennedy, Byrd, Reed, Akaka, Bill Nelson, E. Benjamin 
Nelson, Dayton, Bayh, Clinton, and Pryor.
    Committee staff members present: Judith A. Ansley, staff 
director; and Gabriella Eisen, nominations clerk.
    Majority staff members present: Charles W. Alsup, 
professional staff member; L. David Cherington, counsel; Regina 
A. Dubey, research assistant; Gregory T. Kiley, professional 
staff member; Thomas L. MacKenzie, professional staff member; 
Lucian L. Niemeyer, professional staff member; Lynn F. Rusten, 
professional staff member; Scott W. Stucky, general counsel; 
and Richard F. Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Evelyn N. Farkas, professional staff 
member; Richard W. Fieldhouse, professional staff member; Maren 
R. Leed, professional staff member; Gerald J. Leeling, minority 
counsel; Peter K. Levine, minority counsel; and William G.P. 
Monahan, minority counsel.
    Staff assistants present: Michael N. Berger, Leah C. 
Brewer, Andrew W. Florell, and Nicholas W. West.
    Committee members' assistants present: John A. Bonsell, 
assistant to Senator Inhofe; James Beauchamp, assistant to 
Senator Roberts; Jayson Roehl, assistant to Senator Allard; 
Arch Galloway II, assistant to Senator Sessions; Derek J. 
Maurer, assistant to Senator Collins; D'Arcy Grisier, assistant 
to Senator Ensign; Lindsey R. Neas, assistant to Senator 
Talent; Clyde A. Taylor IV, assistant to Senator Chambliss; 
Christine O. Hill, assistant to Senator Dole; Russell J. 
Thomasson, assistant to Senator Cornyn; Mieke Y. Eoyang, 
assistant to Senator Kennedy; Christina Evans and Terrence E. 
Sauvain, assistants to Senator Byrd; Elizabeth King, assistant 
to Senator Reed; Caroline Tess, assistant to Senator Bill 
Nelson; Eric Pierce, assistant to Senator E. Benjamin Nelson; 
Todd Rosenblum, assistant to Senator Bayh; Andrew Shapiro, 
assistant to Senator Clinton; and Terri Glaze, assistant to 
Senator Pryor.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. The committee meets today to review a 
further report, and I stress a further report, from Dr. David 
Kay on his efforts and the efforts of the team which he was 
privileged to work with, known as the Iraq Survey Group (ISG). 
He served as the special advisor to the Director of Central 
Intelligence (DCI) in determining the status of weapons of mass 
destruction (WMD) and related programs in Iraq.
    After assuming this position last July, Dr. Kay made his 
initial interim official report to this committee on October 3. 
As members of the committee are aware, Dr. Kay has stepped down 
from this position and has been succeeded by Charles A. 
Duelfer, a former colleague and member of the U.N. Special 
Commission with Dr. Kay, who has been appointed by Director 
Tenet to continue this important mission. I met with Mr. 
Duelfer the day before yesterday and we just momentarily met 
with him in the Intelligence Committee room.
    Dr. Kay volunteered, and I emphasize that, volunteered to 
resume his public service, worked diligently for 6 months in 
Iraq under difficult and often dangerous conditions, and just 
concluded his work last week and reported to the DCI. I thank 
you and I thank your wife for your public service.
    Working with General Dayton and the ISG, your mission was 
to search for all facts, I repeat all facts, relevant to the 
many issues about Iraqi weapons of mass destruction and related 
programs. You initiated what was and continues, I emphasize 
continues, to be a very difficult, complex mission, that in 
your own words is yet to be completed.
    As you cautioned us when you took up this post in July, 
patience is required to ensure we complete a thorough 
assessment of this important issue. In this hearing today, we 
hope to receive your assessment of what has been accomplished 
to date, I repeat to date, and what, in your professional 
judgment remains to be done by the ISG. It is far too early to 
reach any final judgments or conclusions.
    In recent days, I mentioned I met with General Dayton, I 
met extensively with Dr. Kay over the recess period, and Mr. 
Duelfer, and have received the assurances of General Dayton and 
Mr. Duelfer that they will be prepared to present to Congress a 
second official interim report of the ISG in the timeframe of 
late March.
    It is crucial that the important work of the ISG go on. 
Thus far, the findings have been significant. Dr. Kay has 
stated that although we've not found evidence of large 
stockpiles of WMD or forward-deployed weapons, the ISG has made 
the following evidence as a part of their record that will be 
forthcoming: first, evidence of Saddam Hussein's intent to 
pursue WMD programs on a large scale; actual, ongoing chemical 
and biological research programs; an active program to use the 
deadly chemical ricin as a weapon, a program that was 
interrupted only by the start of the war in March; evidence of 
long-range missile programs that, in all probability, were 
ultimately going to be used to deliver WMD; evidence that 
Saddam Hussein was attempting to reconstitute his fledgling 
nuclear program as late as 2001; and most important, evidence 
that clearly indicates Saddam Hussein was conducting a wide 
range of activities in clear contravention of the United 
Nations' resolutions.
    As you recently stated, Dr. Kay, and I quote you, ``It was 
reasonable to conclude that Iraq posed an imminent threat. What 
we learned during the inspection made Iraq a more dangerous 
place potentially than in fact we thought it was even before 
the war.'' Further, you said on NBC's Today show on Tuesday 
that it was ``absolutely prudent for the U.S. to go to war.''
    Dr. Kay, I concur in those conclusions. I believe a real 
and growing threat has been eliminated and a coalition of 
nations acted prudently in the cause of freedom. I'd be 
interested if you concur in my conclusions.
    While some have asserted that the President and his senior 
advisors may have exaggerated or manipulated pre-war 
intelligence on Iraq's WMD programs, Dr. Kay reached the 
following conclusion, which I think is different. As you stated 
recently, ``We have to remember that this view of Iraq (pre-war 
assessment of WMD capabilities) was held during the Clinton 
administration and did not change in the Bush administration. 
It is not a political got-you issue. Often, estimates are 
different than reality. The important thing is, when they 
differ, to understand why.''
    That's precisely why I called this meeting, Dr. Kay, to 
continue the work of this committee in developing a body of 
fact from which reasonable people at the conclusion of that 
collection of facts can reach their own objective thoughts and 
conclusions. It's been a difficult process, but the ISG work is 
not completed.
    Now, you have stated that you believe there did not exist 
large stockpiles of biological and chemical weapons, but I hope 
that you will, in your testimony, indicate that since the work 
is not completed, since Iraq is as big as California and 
Baghdad approximates the sprawling territory of Los Angeles, 
that we could find caches and reserves of weapons of mass 
destruction, chemical or biological, or even further evidence 
about the nuclear program.
    We also would hope that you'd address the question of 
whether or not Saddam Hussein had some kind of ``breakout'' 
capability for quickly producing chemical or biological 
weapons, and was this not a basis for constituting a conclusion 
that there was an imminent threat from Saddam Hussein and his 
military.
    Why were the Iraqi WMD records systematically looted or 
destroyed, and why do scientists in custody today continue not 
to be forthcoming, if there was nothing to hide or nothing 
substantial existed?
    The work of the ISG has shown that Saddam Hussein had WMD 
intentions, had WMD programs that did survive, and did outwit 
for 12 years the United Nations Security Council and the 
resolutions, indeed, the inspections in large measure. If 
ultimately the findings of the ISG do differ from the pre-war 
assessments of our Intelligence Community, differ from 
assessments of the United Nations, differ from assessments of 
intelligence services of many other nations, indeed, that is 
cause for concern. But we are not there yet in terms of the 
totality of fact on which to draw such serious conclusions.
    Today and tomorrow our policymakers must be able to rely on 
the intelligence they are provided. The safety and security of 
the men and women of the Armed Forces are dependent on 
intelligence, and indeed, the security of our Nation. So 
collectively all of us, Congress, the executive branch, and 
other nations, we must vigorously continue to pursue the 
collection of the facts as the ISG is doing, and upon that 
completion, then draw our conclusions and take such corrective 
measures as may be necessary.
    As we speak, over 1,400 individuals, military and civilian, 
are on the ground in Iraq seeking the facts about Iraq's WMD 
programs. I have confidence in the commitment and the ability 
of General Dayton, Mr. Duelfer, your successor, and 
representatives from our coalition partners to complete this 
mission. They have some of the best and brightest of our 
military and our Intelligence Community to complete this task, 
and Congress has provided the necessary means, a very 
substantial appropriation of recent. We remain committed to 
providing the resources that are necessary for the completion 
of the ISG work.
    Dr. Kay, I thank you for your public service once again.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman, and let me join you 
in welcoming Dr. Kay to the hearing and stating our thanks for 
his work on the Iraq Survey Group.
    Dr. Kay's recent reported statements--for example, that the 
Intelligence Community was wrong about there being stockpiles 
of weapons of mass destruction in Iraq before the war; that it 
is the Intelligence Community's consensus that the two alleged 
``biological'' trailers were for hydrogen production, not for 
producing biological warfare agents; and that Iraq had not 
reconstituted its nuclear weapons program--stand in sharp 
contrast to the statements made by the administration before 
going to war in Iraq. Dr. Kay's recent statements raise serious 
questions about the accuracy and objectivity of our 
intelligence and about the administration's public statements 
before the war that were supposedly based on that intelligence.
    Before the war, the administration, in order to support its 
decision to go to war, made numerous vivid, unqualified 
statements about Iraq having in its possession weapons of mass 
destruction--not ``programs,'' not ``program-related 
activities,'' and not ``intentions.'' Actual weapons is what 
the administration's statements focused on.
    For example, on August 26, 2002, Vice President Cheney gave 
a major speech about a threat from Iraq's weapons of mass 
destruction.
    He asserted the following: ``Simply stated, there is no 
doubt that Saddam Hussein now has weapons of mass destruction. 
There is no doubt he is amassing them to use against our 
friends, against our allies, and against us.''
    Vice President Cheney was not talking about programs or 
intentions; he was specifically referring to existing weapons 
that were being amassed for use against us.
    Here is what Secretary of Defense Rumsfeld said in his 
testimony to this committee on September 19, 2002: ``Saddam 
Hussein's amassed large, clandestine stockpiles of biological 
weapons, including anthrax, botulism toxin, possibly smallpox. 
He's amassed large, clandestine stockpiles of chemical weapons, 
including VX, sarin, and mustard gas.
    Notice again, not programs or intentions, it's stockpiles 
that Saddam Hussein was said to have amassed.
    On September 27, President Bush said that we must make sure 
that Saddam Hussein, ``never has the capacity to use the 
stockpiles of anthrax that we know he has, or VX, the 
biological weapons which he possesses.'' Notice again, not 
reference to programs or intentions. The representation is 
stockpiles and weapons in the possession of Saddam Hussein.
    On October 7, 2002, President Bush said that, ``It [Iraq] 
possesses and produces chemical and biological weapons.'' 
Possesses and produces, not programs or intentions.
    On February 5, 2003, Secretary of State Colin Powell spoke 
at the U.N. He said, ``We know from sources that a missile 
brigade outside Baghdad was dispersing rocket launchers and 
warheads containing biological warfare agent to various 
locations. Most of the launchers and warheads had been hidden 
in large groves of palm trees--and were to be moved every 1 to 
4 weeks to escape detection. There can be no doubt,'' Secretary 
Powell said, ``no doubt that Saddam Hussein has biological 
weapons . . . and he has the ability to dispense these lethal 
poisons and diseases in ways that can cause massive death and 
destruction.''
    Secretary Powell talked about ``the existence of mobile 
production facilities used to make biological agents.'' He said 
that, ``We know what the tanks, pumps, compressors, and other 
parts look like. We know how they fit together. We know how 
they work. We know a great deal about the platforms on which 
they are mounted. We know that Iraq has at least seven of these 
mobile biological agent production factories.''
    Then he said, ``Our conservative estimate is that Iraq 
today has a stockpile of between 100 and 500 tons of chemical 
weapons agent. That is enough to fill 16,000 battlefield 
rockets.'' He followed on by saying, ``Saddam Hussein has 
chemical weapons. . . We have sources who tell us that he 
recently has authorized his field commanders to use them.'' 
Secretary Powell, in other words, spoke of actual weapons, not 
about ``program-related activities'' or ``intentions.''
    On March 11, 2003, just before the start of the war, 
Secretary of Defense Rumsfeld said the following: ``We know he 
continues to hide biological and chemical weapons, moving them 
to different locations as often as every 12 to 24 hours and 
placing them in residential neighborhoods.''
    About 2 weeks later, Secretary Rumsfeld said, ``We know 
where they [weapons of mass destruction] are.''
    Just in case there was ever any doubt about the reason 
given for why we went to war, the President's Press Secretary 
restated the point this way on April 10, 2003: ``Make no 
mistake . . . we have high confidence that they have weapons of 
mass destruction. That is what this war was about and it is 
about. We have high confidence it will be found.''
    Incredibly enough, administration leaders are still saying 
that we found weapons of mass destruction production 
facilities. Just last week, Vice President Cheney said that the 
two trailers found in Iraq were part of a mobile biological 
weapons lab program and were, in his words, ``conclusive 
evidence that he did in fact have programs for weapons of mass 
destruction.''
    But today's witness, Dr. David Kay, is reported in the New 
York Times as saying that the consensus in the Intelligence 
Community is that those two trailers were for producing 
hydrogen for weather balloons or possibly rocket fuel--but not 
for biological weapons.
    Surely we should find out what is the basis for Vice 
President Cheney's recent statement, as well as the basis for 
the unqualified administration statements made before the war 
which I have just quoted.
    Unfortunately, as of now, the leadership of the Senate will 
not allow an inquiry into how the administration characterized 
the intelligence about Iraq's weapons of mass destruction. The 
Intelligence Committee's inquiry is limited to the question of 
the production of intelligence. That committee is not looking 
into how that intelligence was used and characterized by 
policymakers.
    We will continue to press for an inquiry looking to get the 
whole story, the full picture. If the only way to obtain that 
is to have an outside, independent, nonpartisan commission to 
conduct a comprehensive and objective review of the entire 
matter, so be it.
    Whether one agreed or disagreed with the decision to 
proceed to war, and whether one agreed or disagreed with the 
decision to proceed without the support of the international 
community acting through the U.N., the case made by the 
administration for initiating the war against Iraq was not 
because Iraq had intentions to someday resume production of 
weapons of mass destruction. It was because they had in their 
possession weapons of mass destruction.
    Although the issue of Iraq's weapons of mass destruction 
intentions or ambitions and program-related activities is a 
serious issue, it is not why we went to war. The case for war 
was Iraq's possession, production, deployment, and stockpiling 
of weapons of mass destruction. A different case for war 
against Iraq can be made, but the case which the administration 
made to the American people was the presence of actual weapons 
of mass destruction.
    When lives are at stake and our military is going to be 
placed in harm's way, in other words, when we decide to go to 
war, it is totally unacceptable to have intelligence that is 
this far off or to exaggerate or shape the intelligence for any 
purpose by anybody. Thank you, Mr. Chairman.
    Chairman Warner. Dr. Kay, we'll now receive from you any 
preliminary comments you wish to make.

   STATEMENT OF DR. DAVID KAY, FORMER SPECIAL ADVISOR TO THE 
 DIRECTOR OF CENTRAL INTELLIGENCE ON STRATEGY REGARDING IRAQI 
              WEAPONS OF MASS DESTRUCTION PROGRAMS

    Dr. Kay. Thank you very much, Mr. Chairman. As we 
discussed, I do not have a written statement. This hearing came 
about very quickly. I do have a few preliminary comments, but I 
suspect you're more interested in asking questions. I'll be 
happy to respond to those questions to the best of my ability.
    I would like to open by saying that the talent, dedication, 
and bravery of the staff of the ISG that was my privilege to 
direct is unparalleled and the country owes a great debt of 
gratitude to the men and women who have served over there and 
continue to serve doing that.
    A great deal has been accomplished by the team and I do 
think, I echo what you said, Senator, I think it important that 
it goes on and that it is allowed to reach its full conclusion. 
In fact, I really believe it ought to be better resourced and 
totally focused on WMD, that that is important to do it.
    But I also believe that it is time to begin the fundamental 
analysis of how we got here, what led us here, and what we need 
to do in order to ensure that we are equipped with the best 
possible intelligence as we face these issues in the future.
    Let me begin by saying we were almost all wrong, and I 
certainly include myself here. Senator Kennedy knows very 
directly. Senator Kennedy and I talked on several occasions 
prior to the war that my view was that the best evidence that I 
had seen was that Iraq indeed had weapons of mass destruction. 
I would also point out that many governments that chose not to 
support this war, certainly the French, President Chirac, as I 
recall, in April of last year referred to Iraq's possession of 
WMD. The Germans, certainly the intelligence service, believed 
that there were WMD.
    It turns out we were all wrong probably in my judgment and 
that is most disturbing. We're also in a period in which we've 
had intelligence surprises in the proliferation area that go 
the other way. The case of Iran, a nuclear program that the 
Iranians had was 18 years old, that we underestimated, and that 
in fact we didn't discover. It was discovered by a group of 
Iranian dissidents outside the country who pointed their 
national community to the location. The Libyan program recently 
discovered was far more extensive than was assessed prior to 
that.
    There's a long record here of being wrong. There's a good 
reason for it, there are probably multiple reasons. Certainly 
proliferation is a hard thing to track, particularly in 
countries that deny easy and free access and don't have free 
and open societies.
    In my judgment, based on the work that has been done to 
this point by the ISG, in fact that I reported to you in 
October, Iraq was in clear violation of the terms of Resolution 
1441. Resolution 1441 required that Iraq report all of its 
activities, one last chance to come clean about what it had. We 
have discovered hundreds of cases based on both documents, 
physical evidence, and the testimony of Iraqis of activities 
that were prohibited under the initial U.N. Resolution 687 and 
that should have been reported under Resolution 1441 with Iraqi 
testimony that not only did they not tell the U.N. about this, 
they were instructed not to do it and they hid material.
    I think the aim, and certainly the aim of what I've tried 
to do since leaving, is not political and certainly not a witch 
hunt at individuals. It's to try to direct our attention at 
what I believe is a fundamental fault analysis that we must now 
examine.
    Let me take one of the explanations most commonly given: 
Analysts were pressured to reach conclusions that would fit the 
political agenda of one or another administration. I deeply 
think that is a wrong explanation. As a leader of the effort of 
the ISG, I spent most of my days not out in the field leading 
inspections, it's typically what you do at that level. I was 
trying to motivate, direct, find strategies.
    In the course of doing that, I had innumerable analysts who 
came to me in apology that the world that we were finding was 
not the world that they had thought existed and that they had 
estimated. Reality on the ground differed in advance and never, 
not in a single case, was the explanation, I was pressured to 
do this. The explanation was very often, the limited data we 
had led one to reasonably conclude this, I now see that there's 
another explanation for it.
    Each case was different but the conversations were 
sufficiently in depth and our relationship was sufficiently 
frank that I am convinced that at least of the analysts I dealt 
with, I did not come across a single one that felt it had been, 
in the military term, inappropriate command influence that led 
them to take that position. It was not that. It was the honest 
difficulty based on the information that had been collected and 
led the analyst to that conclusion.
    Almost in a perverse way, I wish it had been undue 
influence, because we know how to correct that. We get rid of 
the people who in fact were exercising that. The fact that it 
wasn't tells me that we have a much more fundamental problem of 
understanding what went wrong and we have to figure out what 
was there. That's what I call fundamental fault analysis.
    Like I say, I think we have other cases other than Iraq. I 
do not think the problem of global proliferation of weapons 
technology of mass destruction is going to go away and that's 
why I think it is an urgent issue.
    Let me wrap up here with just a brief summary of what I 
think we are now facing in Iraq. I regret to say that I think 
at the end of the work of the ISG there is still going to be an 
unresolvable ambiguity about what happened. A lot of that 
traces to the failure on April 9 to establish immediately 
physical security in Iraq, the unparalleled looting and 
destruction, a lot of which was directly intentional, designed 
by the security services to cover the tracks of the Iraq WMD 
program and their other programs as well, a lot of which was 
what we simply called ``Ali Baba'' looting. ``It had been the 
regime, the regime is gone, I'm going to go take the gold 
toilet fixtures and everything else imaginable.'' I've seen 
looting around the world and thought I knew the best looters in 
the world. The Iraqis excel at that.
    The result is--and document destruction--we're really not 
going to be able to prove beyond a truth the negatives and some 
of the positive conclusions that we're going to come to. There 
will be always unresolved ambiguity here. But I do think the 
ISG, I think Charlie Duelfer is a great leader, I have utmost 
confidence in Charles, I think you will get as full an answer 
as you can possibly get.
    Let me just conclude by my own personal tribute, both to 
the President and to George Tenet for having the courage to 
select me to do this and my successor, Charlie Duelfer, as 
well. Both of us are known for what is, at times, a regrettable 
strength--a streak of independence. I came not from within the 
administration and it was clear and clear in our discussions 
and no one asked otherwise, that I would lead this the way I 
thought best and I would speak the truth as we found it. I had 
absolutely no pressure prior, during the course of the work at 
the ISG, or after I left to do anything otherwise. I think that 
shows a level of maturity and understanding that I think bodes 
well for getting to the bottom of this.
    But it is really up to you and your staff on behalf of the 
American people to take on that challenge. It's not something 
that anyone from the outside can do, so I look forward to these 
hearings and other hearings and how you will get to the 
conclusions.
    I do believe we have to understand why reality turned out 
to be different than expectations and estimate. But you have 
more public service, certainly many of you than I have ever had 
and you recognize that this is not unusual. I told Senator 
Warner earlier that I've been drawn back as a result of a 
recent film of reminding me of something. At the time of the 
Cuban missile crisis, the combined estimate--there was 
unanimity in the intelligence service--was that there were no 
Soviet warheads in Cuba at the time of the missile crisis. 
Fortunately, President Kennedy and Robert Kennedy disagreed 
with the estimate and chose a course of action less ambitious 
and aggressive than recommended by their advisors.
    But the most important thing about that story, which is not 
often told, is that as a result after the Cuban missile crisis, 
immediate steps were taken to correct our inability to collect 
intelligence on the movement of nuclear material out of the 
Soviet Union to other places, so that by the end of the Johnson 
administration, the Intelligence Community had a capability to 
do what it had not been able to do at the time of the Cuban 
missile crisis.
    I think you face a similar responsibility in ensuring that 
the community is able to do a better job in the future than it 
has done in the past.
    Senator, I'm happy to answer your questions.
    Chairman Warner. Thank you very much. Colleagues, we'll go 
to a round of 6 minutes. In the event there's a vote, it's my 
intention to continue the hearing on a rotation basis as 
members come and go so we have continuity.
    Doctor, I assure you that Congress, this committee, the 
Intelligence Committee under Senator Roberts, Senator 
Rockefeller, that Senator Levin and I will pursue this, but 
we'll wait until such time as the work of the Intelligence 
Committee--we both serve on that committee--is completed, we've 
had a chance to analyze it, and then we'll sit down to 
determine what the next step may be.
    But bottom line, and you have emphasized it, and that is 
that we have to make such corrections as we deem necessary to 
the intelligence system, for the security of this country, for 
the safety of the men and women in uniform who today and 
tonight and tomorrow and for the definite future will be out 
there taking risks in the cause of freedom. So I assure you it 
will be done.
    Now, I want to pick up on your comment that we were all 
wrong. Let's stop to think about that. We agreed, you and I, 
we've had extensive discussions, that the work of the ISG has 
to continue, correct?
    Dr. Kay. Absolutely.
    Chairman Warner. That given the size of Iraq, California, 
the size of Baghdad, Los Angeles, we could discover some facts 
that would confirm the conclusions that were reached by the 
Intelligence Community, not only in this country but other 
nations in the future. Am I not correct in that assumption?
    Dr. Kay. I certainly think that's a theoretical 
possibility, yes, Senator Warner.
    Chairman Warner. So maybe we better not pronounce we're all 
wrong yet, because I think until we have finished the work, the 
ISG and the other nations that are working for the ISG, I think 
we better hold such conclusion in abeyance. That would be my 
thought.
    Dr. Kay. Senator Warner, may I only add, it would be 
totally out of character for me to be against continued 
investigation in almost any area, that's my life. I believe 
that the effort that has been directed to this point has been 
sufficiently intense that it is highly unlikely that there were 
large stockpiles of deployed, militarized chemical and 
biological weapons there. Is it theoretically possible in a 
country as vast as that that they've hidden? It's theoretically 
possible, but we went after this not in the way of trying to 
find where the weapons are hidden. When you don't find them in 
the obvious places, you look to see were they produced, were 
there people that produced them, were there the inputs to the 
production process?
    You do that and you eliminate, and that's what I mean by 
unresolved ambiguity. When the ISG wraps up its work, whether 
it be 6 months or 6 years from now, there are still going to be 
people who say, you didn't look everywhere, isn't it possible 
it was hidden someplace? The answer has to be honestly, yes, 
it's possible, but you try to eliminate that by this other 
process, and when I reached the conclusion, which I admit is 
partial and is purely mine that I think there were no large 
stockpiles of WMD, it's based on that process. But I agree, 
we're not in disagreement at all. The search must continue.
    Chairman Warner. Right. But the operative word in your 
assumption is large. Several small caches could constitute an 
imminent threat. Am I not correct in that?
    Dr. Kay. That's always possible and I doubt that we will 
ever--I mean, it's possible--they could be there and we could 
never find them.
    Chairman Warner. All right. But let's give this process a 
chance to continue.
    Dr. Kay. Absolutely.
    Chairman Warner. We agree that there could be the discovery 
in some future date of the evidence which confirms, perhaps not 
in totality, but in part, the conclusions of the international 
intelligence community, so we leave open that option.
    But let's go back to your other statement that you feel 
that perhaps as much as 85 percent of the work of the ISG has 
been completed. Am I correct in that?
    Dr. Kay. I've said I think 85 percent of the major elements 
of the Iraqi program are probably known. That's not 85 percent 
of the total volume.
    Chairman Warner. But in our discussions you've emphasized 
that 15 percent yet to be done could yield productive evidence 
that's just as important to what you've accumulated or not 
accumulated to date.
    Dr. Kay. Senator Warner, that's certainly true, 
particularly with regard to the foreign countries and 
individuals that assisted that program, which remain a 
continuing threat in other countries unless we know fully who 
they were and what they contributed.
    Chairman Warner. Clearly that at the outbreak of the war or 
prior thereto and during the war, an awful lot of destruction 
of documents took place and perhaps other tangible evidence. 
Today the persons who were most likely involved in weapons 
programs, most likely to have the knowledge, are refusing to 
talk. Does that not lend itself to an assumption that there had 
to be something there, otherwise they wouldn't have gone about, 
so methodically destroying all the records and refusing to 
talk?
    Dr. Kay. You're absolutely--I think, and I think I've said, 
but let me be absolutely clear about it, Iraq was in clear and 
material violation of Resolution 1441. They maintained programs 
and activities and certainly they had the intentions at a point 
to resume their programs, so there was a lot they wanted to 
hide because it showed what they were doing that was illegal. I 
hope we find even more evidence of that.
    Chairman Warner. Part of that program was missiles clearly, 
clearly in defiance of the U.N. resolution in terms of range. 
They had the potential to incorporate in those warheads, 
although small quantities, nevertheless very lethal types of 
WMD. Am I not correct in that?
    Dr. Kay. You're absolutely correct.
    Chairman Warner. Could you say that the work thus far of 
the ISG, and I recounted a number of things including the ricin 
and so forth in my opening statement, does not that lend itself 
to the understanding, the conclusion that Saddam Hussein and 
this military machine under his control posed an imminent 
threat, perhaps to the neighbors, perhaps to those beyond the 
perimeter of the neighbors?
    Dr. Kay. Senator Warner, I think the world is far safer 
with the disappearance and the removal of Saddam Hussein. I 
have said I actually think this may be one of those cases where 
it was even more dangerous than we thought. I think when we 
have the complete record, you're going to discover that after 
1998 it became a regime that was totally corrupt, individuals 
were out for their own protection, and in a world where we know 
others are seeking WMD, the likelihood at some point in the 
future of a seller and a buyer meeting up would have made that 
a far more dangerous country than even we anticipated with what 
may turn out not to be a fully accurate estimate.
    Chairman Warner. Thank you, Dr. Kay.
    Senator Levin.
    Senator Levin. Dr. Kay, on the question of stockpiles, you 
have stated, I believe, that in your opinion, Iraq did not have 
large stockpiles of chemical and biological weapons in 2002. Is 
that correct?
    Dr. Kay. That's correct, Senator.
    Senator Levin. Do you have any evidence that they had any 
stockpiles, large or small, in 2002?
    Dr. Kay. I simply have no evidence, Senator.
    Senator Levin. You've not uncovered any evidence of small 
stockpiles?
    Dr. Kay. We have not uncovered any small stockpiles, that's 
correct.
    Senator Levin. Have you uncovered any evidence that they 
had small stockpiles in 2002?
    Dr. Kay. We have evidence that they certainly could have 
produced small amounts, but we've not discovered evidence of 
the stockpiles.
    Senator Levin. On the question of the vans, according to 
the New York Times on January 26, you indicated that there's a 
consensus in the Intelligence Community that the trailers that 
we found were intended to produce hydrogen for weather balloons 
or possibly rocket fuel, but not for producing biological 
warfare agents. Was that an accurate report of your position?
    Dr. Kay. That's probably not my exact words, but roughly 
accurate. I think the consensus opinion is that when you look 
at those two trailers, while they had capabilities in many 
areas, their actual intended use was not for the production of 
biological weapons.
    Senator Levin. Now, on January 22, just a week ago, Vice 
President Cheney said that we know, for example, that prior to 
our going in, he had spent time and effort acquiring mobile 
biological weapons labs and were quite confident he did, in 
fact, have such a program. We found a couple of semi-trailers 
at this point which we believe were in fact part of that 
program and I would deem that ``conclusive evidence, if you 
will, that he did, in fact, have programs for weapons of mass 
destruction.''
    Now, those vans, according to the Vice President, 1 week 
ago are conclusive evidence that he had weapons, and yet you're 
saying that the consensus in the Intelligence Community is that 
those vans were for some non-weapons-related purpose, they were 
either for weather balloons, hydrogen, or rocket fuel, but not 
for weapons of mass destruction.
    Do you know what intelligence Vice President Cheney is 
relying on when he tells the public a week ago, not before the 
war, everyone would--they were all wrong before the war--but 
now, a week ago still staying that those vans are conclusive 
evidence that there was a biological weapons program. My 
question: Do you know what intelligence Vice President Cheney 
was relying on 1 week ago when he made that statement to the 
American public?
    Dr. Kay. Senator Levin, if you want the short answer, and 
the obvious answer, as you probably know, is, am I aware of 
what the Vice President was reading a week ago, I'm not.
    Senator Levin. Have you seen intelligence which would 
support that conclusion?
    Dr. Kay. Yes, I have. In fact, if you had asked me, as I 
think in fact you did, or members of Senator Roberts' Select 
Intelligence Committee certainly did in July and August, this 
has been a source of real struggle with regard to those vans. 
There was a point during the process when I would have said the 
consensus opinion is that they were for biological weapons. 
It's been an ongoing struggle to understand those two vans and 
it's been a shifting target in that regard.
    Senator Levin. Now I understand that shifting target thing. 
I'm talking about right now. You've said that the consensus in 
the Intelligence Community is that those vans are not related. 
Is that a correct statement which you just gave here this 
morning? Is that the consensus opinion in the Intelligence 
Community now?
    Dr. Kay. It is my view of the consensus opinion, but there 
are, no doubt given the nature of opinions, people out there 
who hold a different opinion.
    Senator Levin. All right. But in your judgment, the 
consensus in the Intelligence Community now is that those are 
not biological weapons vans?
    Dr. Kay. That is my personal judgment. Others may well hold 
a different one.
    Senator Levin. All right. I think it's critically important 
that we find out the basis of the Vice President's statement. 
I'm saying this to our chairman, not to you, that we find out 
the basis of the Vice President's statement, because this is 
where intelligence becomes so important. If there's 
intelligence out there that still supports the conclusion with 
certainty, he deems this conclusive evidence that he had 
programs for weapons of mass destruction. This is a week ago.
    Now, we have to find out what the basis, it seems to me, of 
that statement is. This is the Vice President's statement. I 
would ask the chairman that we ask the Vice President for the 
basis of that statement which he made publicly just about a 
week ago.
    Senator Roberts. Would the Senator yield on that point?
    Senator Levin. I'd like to first, if I could, just ask our 
chairman whether or not we could ask the Vice President for the 
basis of that statement that was made a week ago?
    Senator Roberts. I think I have an answer for you if you'd 
yield.
    Senator Levin. I'd like to hear it frankly from the Vice 
President in writing.
    Chairman Warner. We have to continue here, colleagues. I'm 
going to ask the indulgence of the committee while the chair 
requests that the committee act on the following list of 
military nominations. A quorum now being present, I ask the 
committee consider a list of 4,763 pending military 
nominations. The nominations have been before the committee the 
required length of time and no objection has been raised 
regarding them.
    Is there a motion to favorably report the 4,763 nominations 
to the Senate?
    Senator Levin. Support.
    Chairman Warner. Second? All in favor, say aye.
    (A chorus of ayes.)
    Opposed?
    (No response.)
    Motion carried.
    Senator Levin. My final question, Dr. Kay, subject to the 
chair perhaps commenting on my request is this: Is it your 
judgment that the aluminum tubes that Iraq was trying to 
acquire were intended or used for a centrifuge program to 
enrich uranium for nuclear weapons? Is that your view?
    Dr. Kay. Senator Levin, this is an area which falls into 
what Senator Warner referred to, where I think it's important 
that the investigation continue. It is my judgment based on the 
evidence that was collected, but there clearly can be more, 
that it's more than probable that those tubes were intended for 
us in a conventional missile program rather than in a 
centrifuge program, but it's an open question that's still 
being investigated.
    Senator Levin. All right. But that is your judgment that 
they were not related to uranium enrichment?
    Dr. Kay. That is my personal judgment that they probably 
were not, based on evidence, but there's still more evidence 
possible to gain.
    Senator Levin. One short final question, my second final 
question: In your judgment, had Iraq reconstituted its nuclear 
weapon program in the way you understand the word reconstitute?
    Dr. Kay. It was in the early stages of renovating the 
program, building new buildings. It was not a reconstituted, 
full-blown nuclear program.
    Senator Levin. Thank you.
    Chairman Warner. Senator, I will take under consideration 
your request. I think Senator Roberts, when it becomes his 
turn, may have a statement that's relevant to it.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman. Thank you, Dr. 
Kay, for your service to our country for many years. We're very 
proud to have people like you who are willing to serve the 
country.
    Dr. Kay, you find yourself today in a very highly charged 
political environment, and you are by nature a scientist and 
not one who's familiar with these kinds of passions around an 
election year. I think it's important to establish your belief 
and that of the overwhelming body of the intelligence and the 
Intelligence Community, both here, overseas, and in the Clinton 
administration, the following facts. Saddam Hussein developed 
and used weapons of mass destruction. True?
    Dr. Kay. Absolutely.
    Senator McCain. He used them against the Iranians and the 
Kurds? Just yes or no?
    Dr. Kay. Oh, yes.
    Senator McCain. Okay. You and inspectors found enormous 
quantities of banned chemical and biological weapons in Iraq in 
the 1990s?
    Dr. Kay. Yes, sir.
    Senator McCain. We know that Saddam Hussein had once a very 
active nuclear program?
    Dr. Kay. Yes.
    Senator McCain. He realized and had ambitions to develop 
and use weapons of mass destruction?
    Dr. Kay. Clearly.
    Senator McCain. So the point is, if he were in power today, 
there is no doubt that he would harbor ambitions for the 
development and use of weapons of mass destruction. Is there 
any doubt in your mind?
    Dr. Kay. There's absolutely no doubt, and I think I've said 
that, Senator.
    Senator McCain. Good. But it's important to emphasize this 
point when we look at what has obviously been an intelligence 
failure.
    Dr. Kay. I agree.
    Senator McCain. When you answered a question from Reuters, 
what happened to the stockpiles of biological and chemical 
weapons that everyone expected to be there, your answer was 
simple: ``I don't think they existed.''
    So what needs to be established here is that when we--at 
least I hope is your--I believe is your view and certainly 
mine, that, as you just stated, America, the world, and Iraq is 
a far better and safer place with Saddam Hussein gone from 
power, and the sacrifice made by American citizens and that are 
serving and sacrificing today was not only worth it, but very 
important to the future of the Middle East and the world. Do 
you share that?
    Dr. Kay. That's certainly true, Senator. I've probably 
learned not to speak to wire reporters and even to watch out 
for Senators who want one-word answers. It tends to compress 
complex issues.
    Senator McCain. But you agree with the fundamental 
principle here that what we did was justified and enhanced the 
security of the United States and the world by removing Saddam 
Hussein from power?
    Dr. Kay. Absolutely.
    Senator McCain. Okay. That's important to establish because 
now in this political season, those are attempted to be mixed, 
that because we didn't find the weapons of mass destruction, 
therefore, the conflict was not justified. That's why I think 
it's important to establish those salient facts.
    But obviously we were wrong, as you said. Now why were we 
wrong?
    Dr. Kay. Senator, I wouldn't pretend that I know all the 
answers or even know all the questions to get at that. I am 
convinced that that is the important forefront of the inquiry 
that quite frankly you must undertake. I have hypotheses of 
where I think things generically have occurred. I think we 
became almost addicted to the incredible amount of effort that 
United Nations Special Commission (UNSCOM) and U.N. inspectors 
could produce on the scene and that flow of information----
    Senator McCain. Including intelligence gained by the 
previous administration?
    Dr. Kay. That's correct. Did not develop our own human 
intelligence (HUMINT) sources there. Now, this really goes 
back, quite frankly, the change took place if you look at it, 
it goes back to the Carter administration when, as a result of 
things that had occurred in the Vietnam area, essentially our 
HUMINT capability was spun down and we got in the habit of 
relying on intelligence collected by liaison services. If a 
liaison, an individual from another country, gets caught as a 
spy, it doesn't make the front page of The Washington Post or 
The New York Times, it's not politically embarrassing, and 
quite frankly, you don't have a dead American, so there are 
good reasons to do it.
    More importantly, and things that I think you have to worry 
about, we have all stressed, why didn't the Intelligence 
Community collect the dots prior to September 11? It all looks 
clear in retrospect. Quite frankly, the most common problem you 
have with analysts is you do not want them to overanalyze the 
data. If there are only a few dots connected, maybe they don't 
belong connected.
    I'm convinced in this area, partly because of Iraqi 
behavior, to a large extent because of Iraqi behavior, they 
cheated, they lied, we knew it, UNSCOM, the U.N. had caught 
them, we got in the habit of new pieces of information accreted 
to this overall consensus view without challenging that 
consensus.
    Senator McCain. Do you believe that those that provided 
false intelligence estimates ought to be held accountable?
    Dr. Kay. Absolutely.
    Senator McCain. Do you believe that we need an independent, 
outside investigation?
    Dr. Kay. Senator----
    Senator McCain. You don't have to answer that if you don't 
choose to, Dr. Kay. That's not a fair question.
    Dr. Kay. No, it is really what goes to the heart of the 
integrity of our own process. I generally believe that it's 
important to acknowledge failure. I also think we have enough 
history to understand that closed orders and secret societies, 
whether they be religious or governmental, are the groups that 
have the hardest time reforming themselves in the face of 
failure without outside input.
    I must say, my personal view, and it's purely personal, is 
that in this case, you will finally determine that it is going 
to take an outside inquiry both to do it and to give yourself 
and the American people the confidence that you have done it.
    Senator McCain. Not only for what happened in the past, but 
so that we can rely on intelligence in the future.
    Dr. Kay. I would say entirely with regard to the future. 
Witch hunting is not a profitable inquiry. It is for the future 
that you need this.
    Senator McCain. Well, again, every once in a while we get a 
chance to see again someone who has served his country with a 
distinction and honor and courage, and we thank you, Dr. Kay.
    Dr. Kay. Thank you, Senator.
    Chairman Warner. Thank you, Senator McCain.
    Senator Kennedy.
    Senator Kennedy. Thank you, Dr. Kay, and I join in all of 
those that thank you for your service to the country. It is 
impressive indeed and we thank you for your appearance here 
before the committee.
    Now, the real question, Dr. Kay, is whether there was a 
greater failure than a failure of intelligence. Yesterday you 
said if anyone was abused by the intelligence, it was the 
President of the United States rather than the other way 
around. But Greg Thielmann, the former Director of the Office 
of Strategic Proliferation and Military Affairs in the State 
Department's Bureau of Intelligence and Research, stated last 
July, some of the fault lies with the performance of the 
Intelligence Community, but most of it lies with the way senior 
officials misused the information they were provided.
    He said they surveyed the data, picked out what they liked, 
the whole thing was bizarre. The Secretary of Defense had this 
huge Defense Intelligence Agency and he went around it. In 
fact, with regard to the question of Iraq's chemical weapons 
program, the Defense Intelligence Agency got it exactly right 
in September 2002. According to the February 2, 2004, edition 
of the New Republic, an agent's report stated there is no 
reliable information on whether Iraq is producing and 
stockpiling chemical weapons or where Iraq has or will 
establish its chemical warfare agent production facilities. Yet 
the President told the United Nations in September 2002 that 
Iraq likely maintains stockpiles of VX, mustard, and other 
chemical agents.
    The next month, the State Department said that the evidence 
was inadequate to support a judgment that a nuclear program had 
been restarted. It said it was impossible to project a timeline 
for the completion of activities it does not know are 
happening. Yet in an October 7, 2002, speech in Ohio, President 
Bush said if the Iraqi regime is able to produce or steal an 
amount of highly-enriched uranium larger than a single 
softball, it could have a nuclear weapon in less than a year.
    Then in September, the Department of Energy had serious 
concerns about whether the famous aluminum tubes had anything 
to do with the Iraqis' nuclear programs, yet Secretary Powell 
used the information in his speech before the United Nations.
    In October of last year, the CIA sent two memos to the 
White House voicing strong doubts about the reliability of 
claims that Iraq was trying to obtain nuclear materials from 
Africa, but the President still used the statement in his State 
of the Union address attributed to British intelligence.
    Many of us feel that the evidence so far leads only to one 
conclusion, that what has happened was more than a failure of 
intelligence, it was the result of manipulation of the 
intelligence to justify a decision to go to war. Now, did you 
have the access to those different intelligence reports as a 
civilian?
    Dr. Kay. Yes, Senator. I had full access to everything in 
the Intelligence Community with regard to Iraq.
    Senator Kennedy. You had it with regard to the State 
Department's intelligence and the Department of Energy?
    Dr. Kay. Yes.
    Senator Kennedy. All of those with their conclusions that 
I've read, just summaries of their conclusions?
    Dr. Kay. I had that as well as the individuals. I had on my 
team members of the Department of Energy who had, in fact, 
participated in writing that view.
    Senator Kennedy. Can you give us any explanation of why 
these agencies in retrospect appear to have had it right, and 
the information that the administration used appeared to have 
it wrong? What weight was given to these reports when you look 
at them in retrospect, and when you have a number of those that 
were involved in the reports believing that the information 
reports were used selectively to justify a policy decision to 
take the country to war?
    Dr. Kay. Senator Kennedy, it's impossible in the short time 
I have to reply to take you fully through that, and in fact, 
that's my hope that Senator Roberts and his committee will have 
done that, but let me just say that there's a selective process 
that goes on both ways. There were people in the DOE who 
believe that those aluminum tubes were indeed for a centrifuge 
program.
    It's a lot easier after the fact and after you know the 
truth to be selective that you were right. I've gone through 
this a lot in my career. All I can say is if you read the total 
body of intelligence in the last 12 to 15 years that flowed on 
Iraq, I quite frankly think it would be hard to come to a 
conclusion other than Iraq was a gathering serious threat to 
the world with regard to WMD.
    I remind you, it was Secretary Cohen who stood, I think in 
this very committee room, with 5 pounds of flour and talked 
about anthrax.
    Senator Kennedy. Just to come back because we have limited 
time--gathering serious threat, you really think that that is--
those are the words that brought us to war, those were the 
words that justified us going into war, a gathering serious 
threat?
    Dr. Kay. Senator, that's probably far more in your realm 
than in my realm. I'll take Senator McCain's defense of I being 
a knave in the world of politics.
    Senator Kennedy. Well, no, I appreciate your response and I 
appreciate your appearance here and I think that when we look 
at who has the responsibility, I think it's fair enough to look 
not only what the intelligence, but all the intelligence 
agencies, and as Senator Levin said how that intelligence was 
used. I think that is going to be the key to find out just what 
representations were made and the reasons why they were made, 
because I think on the basis of the information we have now, I 
think it's difficult to draw a conclusion that it was used 
selectively and in many instances manipulated to carry on a 
policy decision. Thank you.
    Chairman Warner. Thank you, Senator Kennedy. Colleagues, 
just an administrative announcement. We had scheduled this 
morning a 9:30 hearing on three nominations for the Department 
of Defense. It was my judgment, given the uncertainty of the 
weather, that we could not hold it at 9:30. This committee will 
meet at 4:00 for the purpose of considering the following 
nominees: Mr. Di Rita, Assistant Secretary of Defense for 
Public Affairs; Mr. Harvey, Assistant Secretary of Defense for 
Networks and Information Integration; and Mr. Chatfield, 
Director of Selective Service. I do hope as many as possible 
can attend. Thank you very much.
    Senator Inhofe.
    Senator Inhofe. Thank you very much, Mr. Chairman. Dr. Kay, 
I would repeat everything that has been said about you and your 
service, and I appreciate it. I appreciate also the private 
conversations we've had and your being very straightforward.
    Just out of curiosity, and this is something you may have a 
difficult time answering because you're trying to get into 
somebody else's mind, but in our conversations when we talked a 
year ago now, a year ago this month, I believe, about the fact 
that there were weapons of mass destruction, we knew he had 
used weapons of mass destruction. Then last week there was an 
article where you were quoted to say that contemporary 
documents that proved Iraq destroyed the weapons of mass 
destruction in the 1990s. Just out of curiosity, do you have 
any idea why Saddam Hussein did not come forth with that 
evidence when it would have been to his benefit to do so?
    Dr. Kay. Senator, we've wrestled hours with trying to get 
an explanation for Iraqi, and particularly Saddam's, behavior, 
when in fact his rule was at stake, and why he didn't do 
something else. I think most of us come down on two essential 
issues. He did not want to appear to the rest of the Arab world 
as having caved into the U.S. and the U.N., so the creative 
ambiguity of maintaining weapons was important to him and his 
view of Iraq and particularly himself and the rest of the 
world.
    The second is domestic politics. We often forget that he 
used chemical weapons against the Kurds and the Shia and that 
was a continuing threat to him, and he thought that that in 
fact gave him leverage against it. That's our best explanation.
    Senator Inhofe. That's a very good answer. I appreciate 
that. Senator Levin talked about large caches of weapons of 
mass destruction, and Senator Warner talked about some small 
ones. I think back and I can recall when--and this is about a 
year ago now, it was in January, I believe--that they found 11 
chemical rockets that had the capabilities of holding 140 
liters of something like VX gas, which he had used in the past.
    Now, if we found those rockets and they could carry 140 
liters of VX, which all the professional people in discussing 
this said could kill a million people, why is that not 
considered a weapon of mass destruction?
    Dr. Kay. Well, I think, Senator, the reason--and we 
actually found additional warheads during--the same warheads--
--
    Senator Inhofe. Some 36 after that, I believe.
    Dr. Kay. Yes, afterwards, is that there was no evidence--
look, clearly they were in violation not having declared those 
and turned them over, but there was no evidence that the 
warheads themselves had ever been filled. But they were in 
violation of Resolution 1441. They possessed those and they 
should have declared them and allowed the U.N. to destroy them.
    Senator Inhofe. Okay, because I consider that to be a 
weapon of mass destruction--anything that can potentially kill 
a million people is a weapon of mass destruction.
    Now, the third question that I have is you were quoted as 
saying that you believed Hussein had been pursuing a course of 
constructive ambiguity before the war, bluffing about having 
weapons to give the illusion of power and to put up a 
deterrent, and your quote was, ``Saddam wanted to enjoy the 
benefit of having chemical or biological weapons without having 
to pay the cost.''
    Now, in other articles, you had suggested that Saddam was 
being deceived by a scientist who duped him into funding 
nonexistent programs. You're quoted as saying, ``whatever was 
left in an effective weapons capability was largely subsumed 
into corrupt money-raising schemes by scientists skilled in the 
art of lying in a police state.''
    Well, some have said there is some inconsistency there. 
Which of those do you think is the case, that he thought he had 
them or that he knew he didn't have them and was bluffing?
    Dr. Kay. Saddam being deceived was a common phenomenon 
after 1998 and crossed all areas, not just WMD, as it became a 
more corrupt society. I remember the New York Times editorial 
which sees an inconsistency being doing that. I actually don't 
see it. He knew he had the capability, he wanted to enjoy the 
benefits of others thinking he had it. The deception related to 
more advanced programs and that's where it continued up until 
the time of Operation Iraqi Freedom.
    Senator Inhofe. I appreciate that very much and thank you 
for your responses.
    Chairman Warner. Thank you very much, Senator. Senator 
Robert Byrd just informed me that he is required to be on the 
floor for the vote and other reasons. I will put into the 
record his questions and I thank you very much.
    Senator Clinton.
    Senator Clinton. Thank you very much, Mr. Chairman, and Dr. 
Kay, I join with my colleagues in thanking you for your public 
service, and it's with great admiration that I have followed 
your service over a number of years and I thank you greatly.
    I just wanted to clarify a few other comments that had been 
reported in the press just to get the record clear in my own 
mind. There were some references to your decision to leave the 
effort due to the failure to have the full complement of 
analysts, translators, interrogators, and others to work with 
you. I know that that was a concern that had been expressed to 
this committee and others because of the movement of people out 
of the group into counterinsurgency efforts. Was that a factor 
in either impacting the quality and substance of the search or 
your decision to step down?
    Dr. Kay. Senator Clinton, there were two factors that led 
me to decide it was the appropriate time to return to private 
life. When I agreed to take on this job, I had only two 
conditions. When you negotiate with the Federal Government, 
salary is not one of the things you can negotiate. I said there 
were two things that were important to me. One is that the 
instrument we were going to use, the Iraqi Survey Group, be 
totally focused on elimination of WMD as long as we carried out 
that mission.
    That was based on two facts. One, my experience with the 
Federal Government is that when you have multiple masters and 
multiple tasks, you get the typical interagency mush and you 
don't get directive action and I didn't think we had the time 
to do that.
    The second was, and I told George Tenet directly this, my 
undertaking this task from the President of investigating and 
trying to determine reality compared to your estimates, you are 
going to run a moral hazard, the moral hazard of self-
investigation, and that the only way I was willing to be a 
party to that is that I had the independence to choose the 
instrument that was going to be doing it and I had the 
resources that were necessary to do it, and that was agreed.
    By September, I was in the process of running battles, both 
with the DOD and with the Intelligence Community that wanted to 
redirect resources and the activities of the ISG to the looming 
political insecurity crisis that was Baghdad. I perfectly 
understood the difficultly we were having. I lived there, I 
knew how hazardous it was. I just thought the ISG and those 
resources were inappropriate for it.
    By November, I had lost that battle, the decision had been 
made to give ISG parallel priorities in addition to WMD and 
resources were being halved off, and at that point, I did what 
I had said in June when I took the job, I'm simply not prepared 
to run that moral hazard for myself or for someone else under 
those conditions.
    No big surprise and no anger on my part. I was clear going 
in, it's actually in writing on those two points. When the 
administration felt that it couldn't live up to that any longer 
because of the security situation, which I fully understood, I 
thought it best to let someone else who has--who I have great 
respect for and has capabilities and I think he can do it--take 
on the job.
    Senator Clinton. Dr. Kay, I appreciate your explanation, 
but it raises two additional questions, at least in my mind, 
that we have addressed one before, and that is whether we had 
enough resources on the ground to begin with, making this 
Hobbesian choice as to whether to continue with the full 
complement of resources and personnel you required and were 
agreed to be given to you to pursue this important task, or 
having to divert because we didn't have enough resources on the 
ground to do the other job illustrates clearly the confusion at 
the very center of this whole enterprise, post-military action.
    But it raises an additional concern to me, which is that 
this wasn't a priority. If you have a real priority, you figure 
out how to meet that priority. I think that the 
administration's decision to divert resources and personnel 
speaks volumes about what they really thought was at stake. I 
think by certainly November, if not by September, the fact that 
so much of the documentary evidence had been destroyed in the 
looting, the preliminary reports that you provided to Congress 
and the administration, presaged what has become the final 
conclusion you've reached, that we were not going to find such 
evidence of weapons of mass destruction, certainly raises for 
me serious questions about the real intention of the 
administration to begin with.
    Second, I'm very interested in what you have concluded 
about the Iraqi decisions to abandon WMD because of the U.N. 
inspection process, that during the 1990s in fact, the 
international community's efforts to discover and destroy 
Saddam's weapons was working. Is that a fair statement of your 
findings?
    Dr. Kay. It's a compressed but fair, and I must say I had a 
number of former U.N. inspectors working for me. We often sat 
around and said that it turned out we were better than we 
thought we were in terms of the Iraqis feared that we had 
capabilities. Although they took tremendous steps to try to 
compromise us and to lie, in fact the U.N. inspection process 
achieved quite a bit.
    Senator Clinton. Of course my time has expired, but I think 
that rightly does raise questions that we should be examining 
about whether or not the U.N. inspection process pursuant to 
Resolution 1441 might not also have worked without the loss of 
life that we have confronted both among our own young men and 
women as well as Iraqis.
    Dr. Kay. Senator Clinton, let me just add to that. We have 
had a number of Iraqis who have come forward and said, we did 
not tell the U.N. about what we were hiding nor would we have 
told the U.N. because we would run the risk of our own. I think 
we have learned things that no U.N. inspector would have ever 
learned given the terror regime of Saddam and the tremendous 
personal consequences that scientists had to run by speaking 
the truth.
    That's not to say, and it's not incompatible with the fact 
that inspections accomplished a great deal in holding a program 
down, and that's where the surprise is. In holding the program 
down and keeping it from breakout, I think the record is better 
than we would have anticipated. I don't think the record is 
necessarily better than we thought with regard to getting the 
final truth because of the power of the terrorist state that 
Saddam Hussein had.
    Senator Clinton. Thank you.
    Chairman Warner. Thank you, Senator. That question you 
raise is an important one, and our witness addressed it and 
gave his views about the resources, but I would withhold any 
final judgment on that issue until we have before this 
committee General Dayton and General Abizaid.
    I talked with General Dayton 2 weeks ago extensively about 
this issue. He has a somewhat different perspective than our 
distinguished witness, and as recently as last night I talked 
to General Abizaid, and he likewise has respectfully a 
different view.
    But there is one point that you all concur on, and that is 
there came a time in that fall period when we were losing brave 
soldiers, death, wounded, and otherwise, and General Abizaid 
felt that he had to call upon some of your people who had 
capabilities and who indeed were on an ongoing basis 
contributing intelligence from your work to the war of trying 
to stop the insurrection in Iraq.
    Dr. Kay. Senator Warner, as you understand, competing 
priorities are the hardest choice that a military commander and 
others have to make. What most people don't understand, but I 
know you do, is how genuinely short we are as a nation of 
people with certain limited capabilities, for example, 
intelligence officers who speak Arabic. There are more people 
in this room, or there were at the beginning, than we have in 
the Intelligence Community who are actually case officers who 
speak Arabic.
    That's not a surprise. The committees, Senator, the 
Intelligence Committee has addressed it before. The fact is 
we've done a very poor job of addressing it. Like I say, I have 
no anger or bitterness about it. It was simply a fact of life.
    Chairman Warner. But I think you also concurred that----
    Dr. Kay. We peeled resources away.
    Chairman Warner.--the urgency of the loss of life and limb 
among the coalition forces dictated bringing together quickly 
such resources as we could to try and stem the tide of that 
loss.
    Dr. Kay. Absolutely. That was certainly General Abizaid's 
judgment.
    Chairman Warner. I thank you. I'll go vote, and colleagues, 
I will----
    Senator Sessions. Mr. Chairman, if you're going to go vote, 
I'm not safe staying. As long as you're here, I know they won't 
call that vote.
    Chairman Warner. I realize that, but I'll guarantee you 
you're going to be protected.
    Senator Sessions. I will just be brief. Thank you, Mr. 
Chairman. I think everybody on this committee believed that 
there were weapons of mass destruction in Iraq, very few 
doubted it. I remember very distinctly the most questions on 
that was Chairman Warner, and he would ask every major witness, 
when this war is over, are you going to find weapons of mass 
destruction there? I believe he did it a half a dozen times.
    General Abizaid recently testified that after he was asked 
that question, he went back to CENTCOM, called all his staff 
officers in and said, Senator Warner asked me this and are we 
going to find it, and everyone told him that they would. So I 
don't feel like there's any deliberate activities here that 
would indicate that the President or somebody is trying to 
manipulate intelligence.
    In fact, I felt always that the strongest argument for 
taking military action was the fact that the war of 1991 never 
really ended. We were shooting at the Iraqis, we were dropping 
bombs on them, they were shooting at our planes, they were in 
violation of U.N. resolutions, they had promised to eliminate 
weapons of mass destruction as part of that 1991 agreement to 
stop the American attack on Baghdad, and they didn't comply 
with that.
    There was pressure in the world to quit embargoing the 
people of Iraq, they were suffering, and we had to make a 
decision. Were we going to allow them to not comply with the 
agreement they made to end that war, allow them to be free to 
build weapons of mass destruction and threaten the 
neighborhood, or were we going to act under U.N. resolutions? 
Did those resolutions have any value at all?
    So the President, I think, could have justified action on 
that basis had he chosen to. I think that indicates to me he 
clearly believed there were weapons of mass destruction there 
or he could have used other arguments. I guess, Dr. Kay, your 
view is that Saddam Hussein in his own mind had expansionistic 
intentions with regard to the world and that he felt that the 
possession or threat of weapons of mass destruction enhanced 
that ability to be a powerful force in the region. Is that 
correct?
    Dr. Kay. Absolutely right, Senator, I think he--both in the 
region and he thought of them as a potential weapon to use 
against his own citizens to enforce compulsion and agreement. I 
mean, the Kurds and the Shia were threats to Saddam and he 
recognized them and he had used chemical weapons.
    Senator Sessions. Now I noticed that, I believe at one 
point you noted that even his own military officers believed 
they had them.
    Dr. Kay. Yes.
    Senator Sessions. In other words, they would think--would 
you explain that?
    Dr. Kay. In interviewing the Republican Guard generals and 
the Special Republican Guard generals and asking about their 
capabilities and having them, the assurance was they didn't 
personally have them and hadn't seen them, but the units on 
their right or left had them, and as you worked the way around 
the circle, those defending Baghdad, which is the immediate 
area of concern, you got this very strange phenomenon of, no, I 
don't have them, I haven't seen them, but look to my right and 
left.
    This was an intentional ambiguity, and realize freedom of 
discussion and movement was not something encouraged in Iraq. 
For example, Republican Guard divisions never entered into the 
city limits of Baghdad. Only the Special Republican Guard (SRG) 
was allowed to. You didn't even train in multi-divisional units 
because of that issue of his concern about them. It was a 
powerful deception technology. We have it, but we haven't seen 
it, but we know that someone else has it.
    Senator Sessions. It is true, I think, no one can dispute, 
that had he not had these weapons of mass destruction, and had 
opened his country and plainly demonstrated it, this war would 
have been avoided?
    Dr. Kay. Yes, I think that's true, and that's always been 
one of the mysteries for all of us to determine how--why would 
he have run this risk that cost him his regime and the death of 
members of his family if he didn't have those weapons.
    Senator Sessions. That was certainly, I think, on the heart 
and mind of the Members of Congress. We just felt it was so 
impossible they didn't exist. Now, as your investigation went 
about, it strikes me that in the time building up to this final 
initiation of military action that the Iraqi individuals who 
may have been involved in weapons of mass destruction knew that 
their programs were the target of this action and that they 
were in violation of U.N. resolutions, and isn't it true they 
could have seen themselves as being subject to prosecution for 
war crimes?
    Dr. Kay. Absolutely, and a number of those in custody are 
worried about that greatly. It is one reason they're not 
talking.
    Senator Sessions. So not being unclever, they would know 
and would have a real incentive to destroy any evidence that 
they had anything to do with weapons of mass destruction, so we 
could realistically expect many of the documents that would 
have shown all these actions are no longer in existence.
    Dr. Kay. That's right, Senator, and that's why I referred 
to the--there's probably a level of unresolvable ambiguity 
we're going to have to learn to live with about this program.
    Senator Sessions. I would just add, if you would like to 
comment, I think that you indicated the Intelligence Community 
has made mistakes in your opinion and missed much with regard 
to the ideas about Iraq. I think it's wise that a wise leader 
in this country, he has different groups of intelligence 
agencies really try to find out what each is saying, to 
personally interview as close as he can to the people it 
involved, and to make sure that he's getting the nuances from 
different groups.
    Do you think the Vice President or other administration 
leaders should be criticized for talking with individual 
intelligence agencies as they try to make a decision about 
whether or not to go to war?
    Dr. Kay. Absolutely not. In fact, Senator Sessions, it's, I 
won't say funny, it's one of these strange things for those of 
us inside, I've had analysts complain that no one talked to 
them and then analysts who are talked to complain. Look, 
analysts are not generally shrinking--good ones--shrinking 
violets. They know the difference between people, they're used 
to being questioned closely, they should be questioned closely, 
and they are.
    That's why I think--I've never met an analyst who felt in 
this case with regard to these sets of issues that there was 
any inappropriate pressure, and in most cases, they would love 
to have been questioned more, certainly by the Vice President 
or the President or anyone else. That's their profession.
    Senator Sessions. They long for their opportunity to talk 
to someone in authority.
    Dr. Kay. That's what they do.
    Senator Sessions. I thought it was odd that the Vice 
President was criticized for going over on a Saturday morning 
and sitting down with really true people involved in this and 
asking their opinions. I just don't think that was a legitimate 
criticism. Thank you.
    Senator Roberts [presiding]. It is my distinct pleasure 
serving as the acting presiding chairman to recognize Senator 
Reed for any comments he might wish to make.
    Senator Reed. Dr. Kay, let me also commend you, not only 
for your service but for your integrity. We appreciate your 
being here today.
    In your discussion with Tom Brokaw, you were asked about 
the nature of the threat posed by Iraq and Mr. Brokaw said, 
``but an imminent threat to the United States,'' and your 
response was, ``Tom, an imminent threat is a political 
judgment.'' Now, what does that mean? Does that mean that when 
you're presented with analysis from--in fact, conflicting 
analysis--that the President can impose a political 
calculation? Particularly a president that seems to have a very 
preconceived notion of the threat from Iraq?
    Dr. Kay. Senator Reed, it means that any president, when 
he's presented with intelligence, has to make a choice about 
how much risk he's prepared to run for the nation that he 
leads. It is my belief that regardless of political party, 
after September 11, the shadowing effects of that horrible 
tragedy changed, as a nation, the level of risk that all of us 
are prepared to run, that we would like to avoid, but where you 
place yourself on the spectrum of how much risk you're going to 
run is a political responsibility which elected officials have 
and I certainly don't have.
    I think fundamentally that's why in a democracy we elect 
people like you and we elect a president to make those 
determinations. It's not a fixed point that is ever going to be 
carved as pi's constant. It is, what's the world look like and 
how much risk will I run.
    Senator Reed. But also, Doctor, that judgment has to be 
logically related to the evidence you have before you, and like 
so many, and I think you too, there was a supposition that 
perhaps had Saddam had chemical or biological weapons, less 
credibility and claims about having nuclear weapons or a 
nuclear program, and in fact, not just my conclusion but many 
people concluded similarly that despite that assumption that 
there was not an imminent threat to the United States. That 
wasn't just a political judgment, that was looking at the facts 
that were presented by the Intelligence Community, even if they 
were flawed, and making a judgment based on those facts.
    Dr. Kay. Senator Reed, I think it's often easy to forget 
that in the case of Saddam, here's an individual who had 
invaded two neighboring countries, used chemical weapons 
against one of those, used them against his own neighbors, and 
who, by U.N. testimony, had cheated and lied for a decade. So, 
as I look back on the evidence, I understand the decision while 
honoring the right of any elected leader to choose how much 
risk he's prepared to run, and that's what I mean by that. I 
don't think it's something that is a physics constant that you 
can just pull out of a table.
    Senator Reed. Dr. Kay, you also were quoted and Senator 
Kennedy referred to it, ``I think if anyone was abused by the 
intelligence, it was the President of the United States rather 
than the other way around.'' Are you suggesting that the 
President was misled by the American Intelligence Community?
    Dr. Kay. No, sir. What I'm suggesting is that the actual 
facts on the ground will turn out to be substantially 
different, at least with regard to large stockpiles, than the 
estimate before, and we better understand why that's true.
    There are other reasons and other things about Iraq to be 
concerned with, and certainly I think Iraq, if you look back at 
its history of using these weapons, the fact that they remained 
in violation of Resolution 1441, and all of those facts are 
provable, but with regard to the actual existing weapons, which 
people keep coming back to because they are the most 
demonstrable symbol of the threat, reality is very likely going 
to turn out to be different than the estimates.
    Senator Reed. Dr. Kay, you used the term, abused by the 
intelligence.
    Dr. Kay. That's right.
    Senator Reed. He was misled?
    Dr. Kay. If I were your broker and you were investing on my 
advice, something of course I would not advise you to do, and 
at the end of the day, I had said Enron was the greatest 
company in the world and you had lost a substantial amount of 
money because it turned out differently, you would think I had 
abused you. I think the estimate is going to turn out to be 
different than reality. That's abuse as far as I'm concerned.
    Senator Reed. Part of the intelligence process, as I 
understand it, is not only the presentation of evidence and 
analysis by the agencies, but the probing questioning of 
leaders, decision makers, particularly when the evidence is not 
totally reconciled. Do you think that those probing questions 
were made, particularly since so many people in the 
administration had preconceived notions about the nature of the 
threat?
    Dr. Kay. Senator Reed, I was not party to that. I hope in 
whatever process of review that's going on that the full record 
is out there. I will just say I'm convinced myself if I had 
been there, presented with what I have seen as the record of 
the intelligence estimates, I would have come to the same 
conclusion that the political leaders did.
    Senator Reed. Dr. Kay, is North Korea today a gathering 
serious threat?
    Dr. Kay. North Korea is an enigma probably with nuclear 
weapons and long-range missiles. I would probably put it higher 
up on my scale of gathering threat. I think it's an existing 
threat.
    Senator Reed. We are approaching North Korea with the same 
deeply flawed Intelligence Community that abused the President 
of the United States?
    Dr. Kay. I have no knowledge of whether we're approaching 
it with the same--in a case where the reality will turn out to 
be different from the estimate. I just don't know. I think 
that's an appropriate question for you and others to ask.
    Senator Reed. Dr. Kay, the U.N. inspectors were readmitted 
into Iraq for a brief period of time. Had they been allowed to 
continue their mission with adequate support, would they have 
likely reached the same conclusion you have?
    Dr. Kay. All I can say is that among an extensive body of 
Iraqi scientists who are talking to us, they have said we had--
the U.N. interviewed us, we did not tell them the truth, we did 
not show them this equipment, we did not talk about these 
programs, we couldn't do it as long as Saddam was in power. I 
suspect regardless of how long they had stayed, that attitude 
would have been the same.
    Senator Reed. Just one final point because my time has 
expired. I do recollect that there were some missiles destroyed 
because of either their disclosure or discovery by these 
inspectors, which suggested another data point, we seldom 
remember that too, remember that despite----
    Dr. Kay. Absolutely, that's true.
    Senator Reed. So that there was a degree of cooperation and 
a degree of success, perhaps not as conclusive as yours, but 
that was happening, is that correct?
    Dr. Kay. It wasn't cooperation. This was the case of the Al 
Samoud 2 missile, which had been, even under UNSCOM days, a 
source of dispute with regard to its range. They continued to 
develop it after the inspectors left in 1998. By the time the 
U.N. was readmitted and there actually existed Al Samoud 2s, 
there was no way you could contend that that was shorter than 
150 kilometers, and in fact destruction had begun of those 
missiles, that's correct.
    Senator Reed. My time has expired. Thank you, Dr. Kay.
    Chairman Warner [presiding]. Thank you, Senator.
    Senator Roberts.
    Senator Roberts. Yes, thank you very much.
    Chairman Warner. I, by way of introduction, Senator 
Roberts, say that I feel that you and the committee that you 
lead are making a lot of progress towards coming to a body of 
fact and putting it together that will help not only Members of 
Congress, but others trying to have a better understanding of 
this situation.
    Senator Roberts. I thank the chairman and I would hope he 
would write a personal note to Senator Kennedy and Senator 
Levin, maybe indicate that as well.
    Dr. Kay, thank you for your service and thanks to the 
membership of the ISG team that you led. You have earned our 
respect. We have repeated that in the Intelligence Committee 
where you appeared as of this morning for 2 hours. That was 
classified and closed, we won't get into that, but I want to 
assure you of one thing. There is an outside investigation 
taking place under the jurisdiction of the Senate Intelligence 
Committee, which is our jurisdiction and our obligation. This 
involves 10 staffers working 24/7 on floor-to-ceiling 
documents, having interviewed over 175 people, analysts, 
critics, and everybody else that wants to come in. We take that 
job very seriously and we are progressing. I think that when 
Members finally get the draft, the first draft of the working 
paper, many of these questions will be answered. I personally 
take some umbrage at people, who for one reason or another, 
think we need to have an outside investigation before our 
inquiry is even complete.
    As a matter of fact, we had a memo that came out several 
months ago indicating conclusions before we even finished the 
inquiry, so I have some strong feelings about that. In response 
to Senator Levin and in reference to the Intelligence Committee 
inquiry, the draft inquiry report is complete. It will be 
available to Members next Thursday and for their study and 
their perusal, and it's going to take some time because you 
have to wade through this and it's very voluminous. Hopefully 
during that week they will become educated and many of these 
questions will be answered.
    As I said, we interviewed 175 analysts and critics and some 
policymakers and others, and like your analysts at the ISG, not 
one said that they were intimidated or coerced or that their 
product was somehow manipulated. Every statement referred to by 
Senator Levin with regard to the administration officials was a 
reflection of what was provided by the Intelligence Community. 
I mean, why would you do otherwise?
    The reason that the Vice President apparently keeps 
referring to the trailers as mobile labs is that that is the 
view of the CIA as I speak, it's on the CIA web page. It is a 
part of the National Intelligence Estimate, which is provided 
to the Vice President and the National Security Council and the 
President. That's what the CIA believes right now, a very clear 
paragraph that goes into very specific reasons as to why they 
think that this is a mobile lab.
    Now, as you pointed out, there are other points of view. 
That's always the case in regards to, I guess, intelligence. By 
the way, this National Intelligence Estimate was mandated by 
Senator Graham and Senator Durbin in 60--or in 30 days, and so 
to some extent, I believe part of the problem is it became a 
dump, if you will, and I don't mean to use that as a 
pejorative, of all past intelligence, which you have indicated 
most of us think was on a train that was moving and that train 
just kept moving and it was very difficult to change the 
direction of the opinion of virtually every Intelligence 
Community all throughout the world. I think the draft report 
again will answer all of the Senators' questions.
    You recently have been quoted in the press, as has been 
said, as saying that the Intelligence Community owes the 
President an explanation about what went wrong with their 
analysis. You also said it's not a political issue--well, it 
is, but it shouldn't be--it's an issue of the capabilities of 
one's intelligence service to collect valid and truthful 
information.
    What do you think went wrong, both in the analysis and 
collection of intelligence? You've already touched on this. 
Have you seen any evidence through your discussions with the 
Intelligence Community analysts or officials over at the DCI 
that the Intelligence Community recognizes that all of the 
intelligence and their analysis was so wrong? Any admission on 
that part, and do you have any thoughts on what should be done 
to fix these problems?
    I am really interested in your commentary on the dots. 
Prior to September 11, if you had 10 dots to connect, you had 
to connect eight or nine of them to at least have a report and 
a threat warning out there. After September 11, so that we 
wouldn't be risk-averse, if you connected two or three dots and 
you didn't report, you were really in trouble. So the 
Intelligence Community can't have it both ways. First, we 
really criticized them for saying wait, wait, wait, wait until 
you have the appropriate jigsaw puzzle in place that you can 
really read the intelligence. After September 11, why, we have 
a situation, say, if you have two or three of the dots 
connected, why, then you're criticized as well.
    Now, that's a speech, not a question, but if you have any 
thoughts on this, I'd appreciate hearing from you.
    Dr. Kay. No, I think the very appropriate thing, Senator 
Roberts, would be to concur.
    Senator Roberts. I appreciate that. What went wrong, both 
in the collection and the analysis of intelligence? You've 
touched on that.
    Dr. Kay. Senator Roberts, you're far more likely having 
done, as you quite rightly point out, a far more exhaustive 
study than I've had the opportunity. I've been on the sharp end 
of the stick out there. I think it will turn out that we will 
find that there were major shortfalls in collection. As a 
Nation, and this really goes back over 20 years, we decided to 
concentrate most of our intelligence resources on technical 
collection. We got better definition from space. There's only 
so much you can see when you're looking at judgments of this 
sort, and we're particularly bad about understanding societal 
trends.
    I think we will, in the end, when the appropriate historian 
comes around, be able to say that somewhere after 1998 the 
social glue that held Iraq together had been corrosively 
destroyed by Saddam Hussein, that it had become the ultimate 
criminal terrorist conspiracy internally. That's one reason 
we're having such great difficulty and our troops are having 
such great difficulty putting it back together again. It's not 
just the number of troops there, it's that the glue that holds 
people together in a relationship that allows cooperation was 
destroyed by Saddam Hussein, just as the infrastructure was 
destroyed.
    But that turns out to be one of the hardest things for 
intelligence services to read. As you recall, we got it wrong 
in World War II, and it was the very famous strategic bombing 
survey. All the intelligence leading up through the end of 
World War II said the bombing campaign was destroying the 
German will to fight, the civilians were less willing, and the 
German war production was falling. As it turned out afterwards, 
the German will to fight increased under the bombing and the 
war production went up to the last 2 months of the war, it was 
still increasing.
    In the case of the Soviet Union--well, skip Vietnam, but 
very similar estimates about societal determination and economy 
turned out to be wrong. After the fall of the Soviet Union, 
what had looked like a 10-foot power turned out to be an 
economy that barely existed and a society that had horrible 
levels of human health problems, of lack of education and all, 
leading to the current situation. It is a fundamental issue 
that we have--all intelligence services have had understanding 
that, and yet in many ways, it turns out to probably be far 
more important than counting trailers, and yet we've invested 
in counting trailers as opposed to understanding the other.
    I am convinced that we have sadly underfunded and developed 
our human intelligence capability, we have genuinely become 
risk-adverse, and looked at ways that will not put Americans 
either at political or human risk as being spies, and tried to 
do it on the cheap using others. I think there will turn out to 
be trade-craft problems that you probably have already 
identified, and I haven't had the advantage of reading your 
report, that are out there that need to be looked at.
    The last one, which you referred to, we've put the analysts 
under tremendous pressure, and the tendency is to overanalyze 
limited data. There is a point where an analysts simply needs 
to tell people, I can't draw a conclusion, I don't have enough 
data, go get me more data. But in the wake of September 11, 
believe me, that is difficult to do. It's always been 
difficult, but it is much more difficult now.
    Senator Roberts. I thank you for your candor and service. 
My time has expired, but I would say we are constantly having 
these ``Oh my God'' hearings in the Intelligence Committee, 
``Oh my God,'' how did this happen? You go back to the U.S.S. 
Cole and you go back to the Khartoum chemical plant, you go 
back to the nuclear test in India, you go back to Khobar 
Towers, you go back to the Belgrade bombing, and it goes on and 
on and on, same kind of thing. I hope that we have to come up 
with better solutions on how to fix these problems that we have 
been referring to. I know that Senator Collins is waiting 
patiently so I yield back my time.
    Chairman Warner. We're going to recognize Senator Dayton in 
between.
    Senator Roberts. Oh, I'm sorry.
    Chairman Warner. Thank you.
    Senator Dayton. Thank you, Mr. Chairman. Dr. Kay, I met you 
in July in Baghdad, it was 115 degrees there and we left after 
3 days and you stayed on and under those conditions to 
persevere as you have and with the veracity you've shown in 
your report and your candor here today, I would echo the 
others. Your service to our country has been not only patriotic 
but heroic, and I thank you for that.
    It seems to be one of the traps that we may be falling into 
here, and I'm not an expert, so I ask you the question, are all 
weapons of mass destruction alike? It would strike me 
intuitively they are not, and if we're talking about biological 
capabilities, chemical capabilities, I would draw a line, say 
nuclear strikes me as something of a different order, 
conventional weapons, just about everything we put into the air 
or on land or in the water these days I would think constitutes 
a weapon of mass destruction.
    Are we putting ourselves in a trap here where anything of 
any viability at all starts to fall into that category?
    Dr. Kay. It's an important question, particularly as 
technology drives capabilities of even what formerly would have 
been said conventional weapons of capability to do mass 
disruption at least, if not mass destruction. Same thing is 
true in the cyber era. We have today an e-mail worm spreading 
throughout the world that is doing vast mass disruption, if not 
mass destruction, and may be doing that in some areas.
    So these old terms don't serve us particularly well. It's 
one thing I hope to write about as I finish this.
    Senator Dayton. Which weapons of mass destruction qualify 
in that upper echelon of truly mass destruction?
    Dr. Kay. I think all of us have and would continue to put 
the nuclear weapons in a different category. It's a single 
weapon that can do tremendous damage as opposed to multiple 
weapons that can do the same order of damage. The fire bombing 
of Tokyo in terms of number of people killed was roughly 
equivalent to a single bomb in Nagasaki, but it took a lot more 
aircraft to do it.
    So I still treat, and I think we should politically treat 
nuclear as a difference. But I must say, the revolution in 
biology, some developments in cyber, I think we're going to 
have a blurring out there of capabilities, and that makes the 
control, it makes the intelligence problem far more difficult 
to estimate.
    Senator Dayton. Based on your general knowledge, how many 
countries would you say in the world today would qualify under 
the category of developing weapons of mass destruction and 
related program activities, or having such activities?
    Dr. Kay. Senator Dayton, I hesitate to give you an off-the-
cuff number because I know I'll probably--it's going to be like 
the 85 percent, I'm going to have to live with it for longer 
than I want to. I would say that in the nuclear area, in 
addition to those that we know have--possess nuclear weapons, 
that includes India----
    Senator Dayton. I want to go to the vernacular that we're 
using, this broader category.
    Dr. Kay. The broader category? Oh, I suspect you're talking 
about probably 50 countries that have programs that would fall 
somewhere in that broader vernacular.
    Senator Dayton. So if we're going to take out those 
countries or their governments which are engaged in what we 
would call weapons of mass destruction-related program 
activities, we're going to be cutting quite a wide swath.
    Dr. Kay. Senator Dayton, I think you're on to the issue. We 
no longer are going to be living in a world in which we can 
control capabilities. Intentions are what are going to be 
important. Quite frankly, that's what made Saddam so dangerous 
in my view. Here was an individual who had invaded his 
neighbors, used chemical weapons against one of them and used 
them against the others, so it was hard to have a benign 
interpretation of that individual's intentions, and the real 
challenge for intelligence is going to be giving to our 
political leaderships not just judgment about capabilities, but 
judgments against real intentions, and that is tough.
    Senator Dayton. Mr. Chairman--well, I guess he left--I will 
commend the chairman even in his absence for holding this 
hearing and letting these answers, the chips fall where they 
may, because I think what we're at issue here goes way beyond 
politics or partisan advantage one way or the other. This is 
about the survival of our country and the world as we know it.
    I guess I would ask you in the context of I'm assuming that 
our--and I'm not on the Intelligence Committee--but I'm 
impressed that there are very dedicated men and women who are 
spending all of their lives trying their very best to come up 
with the answers to these very difficult questions and 
assessments. Given the limits that you say which go both ways, 
and Iraq may be less developed and countries like Iran and 
Libya farther developed, what does that argue about the wisdom 
of a policy of pre-emptive strikes?
    Dr. Kay. I don't know about the wisdom, but it certainly 
argues about the difficulty of doing it wisely.
    Senator Dayton. I guess it would strike me, and I hope--
again, the chairman's not here--but I would hope we would hold 
a hearing or two about the success, it appears, with regard to 
Libya and the administration's role, and I gather the preceding 
administration's role, so in secret negotiations which have 
brought about a de-nuclearizing of that country and that 
threat, which certainly sounds like it would qualify in the 
upper echelon as you describe it, and contrast that approach 
and its success without a loss of American life in that country 
to what has occurred in Iraq.
    So I hope we can look at both sides of this question and I 
will give the administration credit, whatever the case may be, 
for its successes, but I also want to recognize, I think, the 
grave risks that this limitation of intelligence information 
and its veracity imposes on a doctrine that says we're going to 
preemptively strike a country that we believe has things that 
we've now discovered in this case, with the best of intentions 
I'll concede that, they did not have.
    My time is up, but again, I thank you for your public 
service, sir.
    Senator Allard [presiding]. Since the chairman of the Armed 
Services Committee has had to go vote, I'll go ahead and be 
chairman temporarily until he gets back. In the meantime, it's 
my turn to go ahead and talk to Dr. Kay and visit with him 
about some of the issues related to his duties.
    First of all, I'm trying to think back at the time our men 
and women were going into Iraq, there was a lot of concern at 
that particular point in time about Iraqis having weapons of 
mass destruction, particularly chemical weapons, and did you 
find evidence that there was chemical weapons there at the 
battlefield that perhaps maybe was not in large quantities, but 
small quantities, that would have been a decided threat to our 
men and women on the field?
    Dr. Kay. Senator Allard, that's really one of our immediate 
focuses, because both of the concern, and consequently the 
threat it posed to Americans, but also because of the evidence 
we kept, as you will recall, discovering Iraqi defense chemical 
gear, protective suits and all, as we moved across. We have not 
found any chemical weapons that were present on the battlefield 
even in small number.
    Senator Allard. So all we had is a history of him having 
used weapons of mass destruction using chemicals because we 
knew about the Kurds and where he had used chemicals in that 
particular instance, is that right?
    Dr. Kay. No, I would not say it was just the history. There 
was real reporting that he had it, Iraqi defectors and others, 
that he had it, and ambiguous conversations overheard. So it 
was more than a history, it was a reality, and if you've ever 
had the opportunity to put one of the U.S. protective suits on, 
you realize the men and women you saw dressed up in those 
chemical suits as they marched towards Baghdad did that out of 
real fear that he had chemical weapons. That was not because of 
political pressure. You don't put those suits on for political 
pressure. They're too uncomfortable. It was a genuine fear 
based on the best available information that was present at 
that time.
    Senator Allard. Yes. I recall about the time that our men 
and women were going into the field in Iraq that also they 
discovered a nuclear disposal site, if you recall that. They 
had that on TV and they actually showed the barrels of nuclear 
waste.
    Dr. Kay. Oh, yes, okay.
    Senator Allard. Do you recall that?
    Dr. Kay. Yes, I do.
    Senator Allard. What was the source of that nuclear 
material? Why was that there and what was the source of that 
nuclear material?
    Dr. Kay. There was a large amount of nuclear waste and 
material that the U.N. had purposely left there as the Iraqi 
program was taken down.
    Senator Allard. That was after the Persian Gulf conflict?
    Dr. Kay. That was after the Persian Gulf conflict. What was 
removed was the direct use material that could have been used 
in a normal fission weapon. On the other hand, there was a 
large amount of yellow cake, there was nuclear residue, highly 
radioactive, various sources, there was a large cesium source, 
a cobalt source, and others that in fact had been stored away, 
and I think the waste you're referring to is that.
    Senator Allard. Do we have any idea of the origin of that 
material?
    Dr. Kay. The origin of most of that material is pretty well 
understood. The Iraqis both mined uranium of their own as well 
as imported uranium in the 1980s from Africa.
    Senator Allard. What country in Africa would that come 
from?
    Dr. Kay. Niger.
    Senator Allard. Niger?
    Dr. Kay. The French had provided reactor fuel, as had the 
Russians provided reactor fuel, and some of the waste probably 
had origins in that.
    Senator Allard. Do we know when that nuclear program was 
brought down and when that material was stored in that waste 
site?
    Dr. Kay. We know very precisely, Senator. We started doing 
it in late 1991, and it continued--it was almost complete by 
1995 as material was moved out of Iraq and was sealed and was 
stored. It's very well-documented. The International Atomic 
Energy Agency did a good job.
    Senator Allard. Okay. The National Intelligence Estimate 
concluded that Iraq could build its first nuclear weapon when 
it acquired sufficient weapons-grade material. Did you think 
that conclusion was accurate?
    Dr. Kay. Yes. You have to realize this was a country that 
had designed and had gone through a decade-long nuclear 
program, they knew the secrets. But we took away the critical 
element in making a nuclear weapon once you know the secrets, 
which they had and they'd run the physical tests, is the actual 
fissile material. It's difficult, expensive, takes a fairly 
substantial footprint to develop. The estimate, as I read that 
estimate, and I think all of us did who were concerned with it, 
is, if they managed to acquire a sufficient amount of plutonium 
or high-enriched uranium from a place like the former Soviet 
Union stockpile, how long would it take to fashion that into a 
nuclear explosive device, and I think that estimate was 
actually fairly conservative.
    Senator Allard. You ran over one part of your statement 
that I want to go back. You said they actually ran a test on 
the material that they had there?
    Dr. Kay. With regard to nuclear material?
    Senator Allard. Yes.
    Dr. Kay. During the 1980s they ran a number of tests using 
both what are normal simulants that you use in a physics 
experiments, as well as they had separated out a small quantity 
of plutonium and they had some high-enriched uranium that had 
been supplied in French fuel.
    At the time of the first Gulf War, we subsequently learned, 
they were taking the French fuel and trying to produce, fashion 
together, a crude nuclear explosive device, for which they had 
run experiments understanding how much conventional explosions 
it would take to move the mass together. They were good 
physicists.
    Senator Allard. Did they use the aluminum tubes at that 
point in time to enrich their uranium, do you we know?
    Dr. Kay. No, they did not. They relied on different 
processes.
    Senator Allard. Okay. I have one other question. What can 
you tell us about Iraq's efforts to restarts its nuclear 
program in 2000 and 2001?
    Dr. Kay. As best as has been determined, and this is 
obviously something the investigation is continuing, in 2000 
they had decided that their nuclear establishment had 
deteriorated to such a point that it was totally useless. They 
started--the main center is a center called al-Tuatha, which 
is--in fact, I think you probably flew over it--you generally 
do when you go around Baghdad. It's a large site but the 
physical facility had seriously deteriorated and they started 
building new buildings, renovating it, hiring some new staff, 
and bringing them together.
    They ran a few physics experiments, re-ran experiments they 
had actually run in the 1980s. Fortunately, from my point of 
view, Operation Iraqi Freedom intervened and we don't know how 
or how fast that would have gone ahead.
    Senator Allard. So it was definitely a threat as far as 
you're concerned, in 2001, 2000?
    Dr. Kay. Given their history, it was certainly an emerging 
program that I would not have looked forward to their 
continuing to pursue. It was not yet up as a full nuclear 
production site again.
    Senator Allard. Thank you, Dr. Kay. I now call on Senator 
Pryor.
    Senator Pryor. Thank you, Mr. Chairman. Dr. Kay, thank you 
again for being here. I know that a number of people have 
expressed their gratitude and I want to join in that chorus. 
Let me just ask a few questions here. How long were you 
searching for weapons of mass destruction in Iraq?
    Dr. Kay. I arrived in June and I left in late December.
    Senator Pryor. Were you on the ground most of that time?
    Dr. Kay. Yes, only except the time I was required to be 
back here before you.
    Senator Pryor. Right. How many sites did you or your team 
visit in Iraq?
    Dr. Kay. Senator Pryor, I'm sure we can give you the exact 
number, but it was in the hundreds.
    Senator Pryor. Also I'm sure you looked at, what, thousands 
of pages of documents, is that fair?
    Dr. Kay. Closer to hundreds of thousands of pages of 
documents.
    Senator Pryor. How many inspectors and, I guess you might 
want to call them analysts, did you have on your team there to 
assist in this effort?
    Dr. Kay. Roughly in terms of--they fall into three areas, 
to give you the count that is--you can deal with and make some 
meaning. In terms of subject matter experts, that is, analysts, 
we had at the max count somewhere around 110, maybe as high as 
130 at the very max, it can go lower than that at other times. 
In terms of case officers, these are clandestine officers who 
are used to working in the field and equipped by trade craft 
and training to do that, the figure comes out to be somewhere 
around 30 to occasionally 40. Translators and interpreters was 
roughly somewhere between 300 and 400 at various times.
    Senator Pryor. Okay. Did you have full access to our 
intelligence, our pertinent intelligence on WMD?
    Dr. Kay. Absolutely.
    Senator Pryor. Nothing was screened from you as far as you 
know?
    Dr. Kay. As far as I know, nothing was screened, nor do I 
believe anything was screened.
    Senator Pryor. Right. At what point during this process did 
you start to get that uneasy feeling about WMD in Iraq where 
you thought you might not find anything or your search might be 
unfruitful?
    Dr. Kay. Senator Pryor, it was not a 3 a.m. wake-up call in 
the middle of the night, it was the emerging picture that we 
had gathered, and by late September, early October, we were all 
starting to look at the data and look at the conclusion and 
come to it, and certainly by November, I think if asked, and I 
have been asked internally, I kept saying, I think we have a 
program here that looks different from the estimate with regard 
to assembled weapons.
    Senator Pryor. All right. At what point did you begin 
communicating that with the Pentagon or the administration or 
the CIA? I don't know exactly who you're reporting to.
    Dr. Kay. It was with the intelligence agencies. Oh, I think 
my first communication about this program may look like one 
that doesn't have assembled weapons but has capability to 
rapidly restart his program actually came in July based on, 
here again I'm, as all analysts, this may have been a case of 
connecting dots when there were few dots, and certainly by the 
fall, there was a fairly regular dialogue with regard to these.
    Senator Pryor. Okay. I know that when you're talking to the 
intelligence agencies, to some extent you're talking to the 
White House, but did you ever report this directly to the White 
House?
    Dr. Kay. No. In fact, I've spoken to the President, 
directly to the White House only once. It was in July when I 
was back. The channels went, as they appropriately should, 
through the DCI.
    Senator Pryor. In this summer and fall period where you 
started expressing concerns and started to tell them about your 
findings and some of your conclusions perhaps, what was their 
response to that? What was their reaction to that?
    Dr. Kay. It was the absolutely appropriate one: where's the 
data? What's the data? Have you considered this? Will you look 
here? Have you done that? It was the healthy skepticism and 
dialogue that I too exercise with regard to my own staff and I 
expect to be held to. There was absolutely no inappropriate 
response, no refusal to consider it. It was the healthy 
skepticism and demand for data, which is appropriate.
    Senator Pryor. You've testified today that we know Iraq had 
some WMD and used some in the 1980s and on into the very early 
1990s. What is your thinking on how they got from that point, 
where they clearly had some, to today, where I guess your 
conclusion, it's fair to say, is they don't have a weapons 
program, and if they have any WMD at all, it's very small.
    Dr. Kay. It's not that they don't have a weapons program--
didn't have a weapons program. I hope they don't now. It is 
that they had a weapons program, but it was a program activity 
designed to allow future production at some time, and that the 
missile program was actually moving ahead. I continue to 
emphasize I think is one that we've paid inadequate attention 
to.
    I think how they got there is they got there because the 
U.N. inspectors did a better job. I had them tell me in 1991, 
they told me personally, directly, ``you're not behaving like 
we thought a U.N. inspector would behave.'' I took that as a 
compliment. We were intrusive, we were aggressive in the best 
sense of that word. As we kept finding things and then the key 
defection, we come back to Hussein Kamal in 1995, which they 
feared would lay open their whole past 5 years of deceit and 
lying to the U.N., they decided to reduce the thing that they 
were most vulnerable to, and that's large retained stocks, 
knowing that they could--at some point they'd get rid of us, 
they thought, and they could restart production, so they kept 
the technology but they didn't--they came to what I think is a 
fair conclusion, why keep stockpiles of weapons that are 
vulnerable to inspectors when you've lost your delivery 
capability? Wait until you have your delivery capability and 
then it's a relatively short order.
    We have documentary evidence and testimony that Saddam and 
Uday and Qusay asked in both 2000 and 2001 how long it would 
take to restart production of mustard and VX nerve gas. This 
was a key point in part of this reckoning of when did you think 
they might be following a different strategy than the estimate. 
When you get senior officials asking, how long will it take you 
to produce these agents, that tells you at least to be awake to 
the possibility that that means they didn't have those agents.
    Senator Pryor. So, and this is my last question because I'm 
out of time, is it your opinion then that the regime that was 
set up after the Gulf War in 1991 was at least to some degree 
effective in ending their WMD capabilities?
    Dr. Kay. I think UNSCOM deserves a considerable amount of 
credit for disarming and destroying, the typical thing which 
all of us who served on UNSCOM are proud of. In terms of 
destruction, we destroyed more of the WMD program than bombing 
did during the Gulf War.
    I think where we always worried, and appropriately so, we 
know now, is getting at what they retained and what they hid, 
because you were up against things that were smaller, easier to 
hide in a terrorist regime. We took the easy stuff out, nuclear 
reactors, big plants, large amounts of material, and that gets 
to your earlier very good question, why did they change the 
strategy? They changed to the things that we were not 
particularly good at unmasking, that would allow them to 
restart the program as soon as they got rid of us.
    Senator Pryor. That's all I have, Mr. Chairman. Thank you.
    Chairman Warner [presiding]. Thank you very much, Senator.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman. Dr. Kay, let me 
start by joining my colleagues in thanking you for your most 
impressive extraordinary public service and we very much 
appreciate your being here today to share your experiences and 
your conclusions with us.
    I am deeply troubled by what appears to be a colossal 
failure by our intelligence agencies, and I would note that 
this failure spans agencies, it spans years, but it also spans 
countries. It really is a global intelligence failure, it 
wasn't just our intelligence agencies alone that so misread 
this vital situation.
    I personally believe that the war was justified for the 
reasons that Senator McCain listed as well as others. We know 
that Saddam had chemical and biological weapons at one point, 
we know that he invaded his neighbors, that he used chemical 
weapons to kill some 5,000 Kurdish citizens, we know that he 
planned to assassinate a former President of the United States, 
he shot at our planes, he violated the cease fire agreement for 
the first Gulf War, he ignored numerous United Nations 
resolutions. So there was lots of justification to hold Saddam 
accountable.
    But what if we're faced with making a decision where there 
isn't this additional justification? That is what is so 
frightening to me, because we make such serious life and death 
decisions relying on this intelligence information. I, for one, 
don't know whether or not to trust the intelligence estimates 
on North Korea now. We've turned out to be wrong in the other 
direction on Libya and Iran. So that's why this is so troubling 
to me.
    It's particularly troubling because the briefings that we 
had were so detailed and so specific, and I want to cite an 
example. We had known based on the Iraqi declarations to the 
U.N. inspectors that Iraq had produced thousands of tons of 
deadly chemical weapons such as mustard gas, sarin, and VX, as 
well as very large quantities of biological agents such as 
anthrax. I recall being told, and I used it in my statement, 
that when the inspectors left in 1998, there were very large 
discrepancies between the weapons that were declared and the 
amounts that were destroyed.
    For example, I was told that at least 1.5 tons--tons--of 
deadly nerve agent, the VX, were unaccounted for. What, in your 
opinion, happened to all of those chemical agents and 
biological agents? Where did the VX and anthrax go?
    Dr. Kay. It is still a subject of investigation. Let me 
deal with the VX. Interesting enough, the Iraqis, we now have 
the records of the Iraqis as they tried to investigate that in 
order to get the evidence to answer UNSCOM and later UNMOVIC on 
that.
    This is what happens. Remember, they had the ends of two 
chaotic wars. They had the end of the Iran/Iraq war and they 
had the end of Gulf War II. One large amount of VX--it had been 
forward deployed in Iraq towards the Kuwaiti border--as they 
were moving it back in 1991, there was a traffic accident. The 
truck carrying it was totally consumed in a fire. They 
documented it in part, but there was the usual embarrassment of 
do we tell Saddam we've just burned up a large amount of 
chemical warfare agent, so it wasn't fully reported and fully 
documented. They didn't do analytical sampling so they had 
nothing--and only partial records.
    That now looks like an explanation that increasingly looks 
like it was true. Some of it was simply accounting errors that 
were wrong in material balance. Others are going to be in what 
I call this unresolved ambiguity, that we may simply never 
know.
    Senator Collins. I'm intrigued by the interviews that you 
conducted with some of the Iraqi scientists, who outlined a 
plan of deception of their own where they may have told Saddam 
what he wanted to hear for fear of the consequences to them if 
they said they couldn't deliver on certain weapons. That leads 
me to ask you, do you believe that Saddam himself believed that 
he had these stockpiles of chemical and biological weapons? I 
realize that's in some ways an unanswerable question, but what 
is your feeling on that, what's your judgment?
    Dr. Kay. It's one of the toughest questions around and we 
have just little pieces of evidence, so let me tell you now 
what I believe, because I don't know, or what I think is true, 
but what the evidence shows. We have these questions about how 
long will it take you to produce? It sounds like he knows he 
doesn't have anything and so he's asking for restarts of 
production, and these included Saddam, Uday, and Qusay.
    There are other reports from the interrogations that at 
times Saddam referred to secret stockpiles, small amounts that 
were existing, no confirmation of that. My suspicion is that he 
probably thought he was closer to getting it, could restart 
faster than the scientists and engineers knew it would take. So 
when it really came down, these requests, one in--I think it's 
two in 2001, in which they gave him estimates that were longer 
than he obviously had expected them to be, was when they were 
confronting the truth. I think he had been told they had got 
rid of it all but that we could really turn the tap on very 
quickly, and it turned out they lied about how quickly. It was 
quick but it wasn't as quick as he anticipated.
    But this is one of those areas, as Senator Warner correctly 
keeps referring to, as where the investigation really does need 
to continue.
    Senator Collins. Thank you.
    Chairman Warner. Thank you very much, Senator.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman. Dr. Kay, I 
want to add my appreciation for your candor. It's very 
refreshing to see such public candor in a time when too often 
the trend is progressive candor, but I want to thank you for 
many of your points that you've made because I think it helps 
us understand the importance of intelligence and the importance 
of accurate intelligence, and yet the difficulty there is in 
first of all achieving the role that you need to gather 
intelligence, let alone establishing its accuracy.
    It's based on that that I have concerns about the use of 
preemptive force being predicated on intelligence. I think many 
supported the President's decision to use force to liberate 
Iraq and believe that the world's a safer place because of 
Saddam being in a prison cell. But many of us supported 
Saddam's removal because we believed in the credibility of the 
intelligence that was provided, and we believe also, and I 
believe personally, that the President did not intentionally 
mislead the American people, nor do I believe Prime Minister 
Blair would mislead his public.
    But there is unquestionably a credibility issue here that 
must be addressed. That credibility problem involves the 
accuracy of the intelligence information, or lack of accuracy, 
its uses, and most likely, its embellishment. Your findings 
indicate that Iraq had only a rudimentary chemical, biological, 
and nuclear program, and you've identified and you've said that 
weapons of mass destruction-related program activities, and I 
have to ask you, what does that mean? What are weapons of mass 
destruction-related program activities?
    Dr. Kay. That includes, for example, and take the specific 
examples of the Iraqis, a program to develop a substitute for a 
major precursor for VX using indigenous production capability 
and indigenous chemicals so they would not have to import it.
    It includes a study, for example, on a simulant for 
anthrax. Pre-1991, their anthrax was liquid. They had tried to 
freeze-dry it and get it down to the dry anthrax, which is 
stable and much more deadly, lethal, as we found out here. By 
using this simulant, they actually pushed about two generations 
the production capability. Now, for this simulant, the same 
production capability that produces it, is exactly the same 
that produces anthrax, so they in fact had moved ahead their 
anthrax capability by working on a simulant.
    So it's in those areas that you get program--they had 
looked at the lethality of various agents and classified them. 
That's WMD-related work.
    Senator Ben Nelson. All right. You've indicated that you've 
found no evidence of existing stockpiles of WMDs. Is it 
possible that they found their way to Syria? Is there any way 
of knowing whether they found their way to Syria or to another 
location?
    Dr. Kay. In terms of possibility, you can't rule out 
anything. The way I tried to direct our activities, I knew we 
were not going to get permission to conduct inspections in 
Syria as much as I would professionally and personally have 
enjoyed it. I also knew that the intelligence we collected that 
showed movement of material across the Iraq/Syrian border 
didn't show what was in the containers.
    So you try to answer that question by saying, was there 
something to be moved back across the border? Look at 
production capability. It is totally inadequate for saying, did 
they move small amounts, did they move technology, did they 
move documentation? Absolutely possible, I would say probable. 
But my personal belief is that they did not move large 
stockpiles because I do not believe they had reconstituted the 
capability that had produced large stockpiles.
    So that's how you get at it. Is it inadequate? Yes. Will it 
probably always remain as an--unless the Syrian regime really 
changes course, will it always remain uncertain? Yes.
    Senator Ben Nelson. Is it a basic assumption on your part 
or a suspicion that's based on the evidence that you've said, 
movement of certain undefined, non-inspected containers or 
other activity that took it across--took things across the 
border?
    Dr. Kay. My belief that they did not move large stockpiles 
of WMD to Syria is based on my conclusion that there were not 
large stockpiles to move. My assumption that it might have been 
something else is there was so much movement that you just 
can't rule out what was there. I don't know.
    Senator Ben Nelson. Well, is it fair to say that the people 
who are in charge of the weapons of mass destruction activity 
probably were better informed about how to secrete it than 
those who decided to bury airplanes?
    Dr. Kay. One makes that assumption.
    Senator Ben Nelson. I would think so.
    Dr. Kay. I also have to say that the people most likely to 
have been involved in this movement were the people in the 
intelligence services and around Uday and Qusay, and 
fortunately for the world, Uday and Qusay are no longer around 
to give evidence. A lot of those intelligence agents are either 
now dead or they're in opposition to the U.S. and not available 
for ISG. So there is a limited circle of people who probably 
had first-hand knowledge about moving it, and here's how we get 
to irreducible uncertainty. They're dying, not soon enough in 
my view, but they are dying.
    Senator Ben Nelson. Dr. Kay, I appreciate very much, as I 
say, your candor, and I totally agree with you that an outside 
body investigating and looking into this intelligence 
credibility issue is important. Certainly it's absolutely 
critical to the first track doctrine, which has to be on the 
basis of what you know, not what you think you know, and I 
appreciate your candor with respect to that as well. I'm 
certain that that's not always an easy thing to be able to take 
a position that strong, but I do appreciate that you've done 
that.
    Dr. Kay. Thank you.
    Senator Ben Nelson. Thank you. Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator, for your 
participation.
    Senator Cornyn.
    Senator Cornyn. Thank you. Dr. Kay, I too want to thank you 
for your service. I'm deeply concerned lest the politics of the 
moment overshadow some important facts. First, would you agree 
that not only are intelligence agencies, but Democrats, 
Republicans, President Clinton, President Bush, France, 
Germany, Britain, all agreed that Saddam had stockpiles of WMD?
    Dr. Kay. I think that's true.
    Senator Cornyn. Until your report, after your long work 
with the ISG, have you found that anyone, any one of those 
people or groups that I've identified have in fact learned that 
it was not true, but nevertheless tried to manipulate it and 
present it as fact for some improper purpose?
    Dr. Kay. No, I know of no manipulation. I know of a lot of 
skepticism because it was such a widely-held view and wanting 
to know the facts, and I view that as absolutely appropriate.
    Senator Cornyn. So you know of no evidence, no indication 
that anyone tried to intentionally manipulate the intelligence 
that we got in order to justify going to war in Iraq?
    Dr. Kay. I've seen no evidence of that, nor have I seen any 
evidence after the fact of anyone trying to influence the 
conclusions that I or others are reaching as part of the ISG.
    Senator Cornyn. Let me just try to nail down a couple other 
facts. Although it now appears that Saddam, or at least so far 
appears that Saddam did not have large stockpiles of WMD, he 
did continue research on chemical and biological and even 
nuclear weapons, correct?
    Dr. Kay. Absolutely.
    Senator Cornyn. Would you say then, Dr. Kay, that it was 
just a matter of time before Saddam would build such stockpiles 
or have that capability in a way that would threaten not only 
people in Iraq but people in that neighborhood and perhaps 
others?
    Dr. Kay. I think you will have, when you get the final ISG 
report, pretty compelling evidence that Saddam had the 
intention of continuing the pursuit of WMD when the opportunity 
arose, and that the first start on that, the long pole in the 
tent, was this restart of the long-range missile program.
    Senator Cornyn. So that given time, these programs would 
have matured and Saddam would have been able to reconstitute 
his WMD arsenal?
    Dr. Kay. I hesitate, Senator, I think that's the safe 
assumption. What I don't know over time, and I'm more and more 
struck with, is how corrupt and destructive that society had 
become, but you can't count on when it would fall apart, and it 
might fall apart in ways that are far more dangerous, so I 
think that is the safe assumption.
    Senator Cornyn. You said something during your opening 
statement that intrigues me and something that I'm afraid may 
be overlooked in all of this back and forth, and that has to do 
with proliferation. You said that there was a risk of a willing 
seller meeting a willing buyer of such weapons or weapons 
stockpiles, whether they be large, small, or programs, whether 
it's information that Iraqi scientists might be willing to sell 
or work in cooperation with rogue organizations or even 
nations, but do you consider that to have been a real risk in 
terms of Saddam's activities and these programs, the risk of 
proliferation?
    Dr. Kay. Actually, I consider it a bigger risk than the--
and that's why I paused on the preceding question--I consider 
that a bigger risk than the restart of his programs being 
successful. I think the way the society was going and the 
number of willing buyers in the market, that probably was a 
risk that if we did avoid, we barely avoided.
    Senator Cornyn. Indeed that continues to be a concern we 
have today in the old Soviet Union and other places where----
    Dr. Kay. Pakistan.
    Senator Cornyn. Pakistan, other nations where they've had 
official weapons programs, biological, chemical, and nuclear, 
the risk of proliferation into the hands of terrorists like al 
Qaeda and others. Is that correct, sir?
    Dr. Kay. That's correct.
    Senator Cornyn. Indeed, the deception that you've talked 
about of Saddam's own military and scientists and others who 
perhaps led him to believe that they were following through on 
his orders to develop these weapons of mass destruction, would 
you say that that deception not only convinced perhaps Saddam 
to some extent, but indeed that contributed to his 
intransigence before the world community and defiance of the 
United Nations and particularly finally of U.N. Resolution 
1441?
    Dr. Kay. I think that probably did. I'm just hesitant 
because analyzing the mind of someone who would end up in a 
spider hole like Saddam requires a skill that I suspect I was 
not equipped for, but yes, I think that's a reasonable 
interpretation.
    Senator Cornyn. Thank you very much, Dr. Kay, I appreciate 
it.
    Chairman Warner. Thank you, Senator, very much.
    Senator Bill Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman. Dr. Kay, in 
the interview with the New York Times a few days ago, you had 
said, ``I think that the system should have a way for an 
analyst to say, `I don't have enough information to make a 
judgment.' There is really not a way to do that under the 
current system.''
    The New York Times article goes on and this is what I want 
to ask you about. ``He added,'' meaning you, ``that while the 
analysts included caveats on their reports, those passages 
tended to drop off as the reports would go up the food chain 
inside the government.'' Tell me about that. How is that 
possible that in the Intelligence Community specifically when 
caveats are there about intelligence, that they get dropped off 
as it goes up the pecking order?
    Dr. Kay. Senator, when Jim Risen asked me about that, I 
gave him an example which he did not include in the article. I 
said writing caveats has about the same intellectual enjoyment 
as being a writer for the National Geographic. I look at the 
pictures, I look at the captions. I confess, although I think 
we have in the basement probably a 20-year collection of 
National Geographics, I would be hard-pressed on a polygraph to 
say that I've ever read more than five of them.
    What happens is, it's not that they are physically removed. 
It's the higher up you go--just in your office, I suspect there 
are things that your staff passes up that you read the 
headlines of, you read the summary, you're busy, you have other 
things to do. Caveats tend to fall into footnotes, they tend to 
fall into smaller-point type. After all, they're not what most 
people think, and you have just limited time and attention and 
it's a natural filtering phenomenon as opposed to a physical 
cutting. It's just one of those things, and look, I can point 
to myself as having been a consumer at points of intelligence, 
you like to believe that you fully read it and you search the 
caveats and you gave them the same attention that you give the 
dominant opinion. Very often you don't. There are just not that 
many hours in the day.
    Senator Bill Nelson. Dr. Kay, I, along with 76 other 
Senators, voted for the resolution authorizing the President, 
the expenditure of funds for starting the war. I want to tell 
you some specific information that I was told by the 
Intelligence Community that has subsequently been made public 
by Secretary Powell in his speech to the United Nations. At the 
time it was highly classified and subsequently the 
administration declassified it and made it public.
    I haven't heard these comments from anybody else, but I was 
told not only did he have the weapons of mass destruction, and 
that he had the means to deliver them through unmanned aerial 
vehicles (UAVs), but that he had the capability of transporting 
those UAVs outside of Iraq and threatening the homeland here in 
America, specifically by putting them on ships off the eastern 
seaboard, of which they would then drop their WMD on eastern 
seaboard cities. You can see all the more why I thought there 
was an imminent threat. Can you bring any light on this?
    Dr. Kay. Senator, what we have spent a great deal of time 
exploring and it's still being explored is the UAV program. It 
was a very large UAV program and discoveries were being made 
really in the last 2 months with regard to that program. The 
Iraqis acknowledged that at least one of those families of UAVs 
was a direct descendant from an earlier one that had a spray 
tank on it.
    I think the judgment you will find, certainly it's--let me 
not judge what others will say--my judgment, having looked at 
that evidence of the UAV program, is that it was an active 
program, it's one of these program elements, WMD program 
elements that continued. It was not at fruition. While it may 
have been theoretically possible that you could have snuck one 
of those on a ship off the East Coast off the United States 
that might have gotten, been able to deliver a small amount 
someplace, and that's certainly always possible, a good 
hobbyist could probably do it right now with off-the-shelf 
material here. I don't think there was the deployment 
capability, the existing deployment capability at that point 
for any sort of systematic military attack.
    But certainly as a terrorist action, who knows what he 
would have done. But we just did not discover--I mean, we 
discovered the UAVs and we discovered their development, and 
one of them is tied to a sprayer application, but it was not a 
strong point.
    Senator Bill Nelson. Dr. Kay, needless to say, I was 
absolutely told that that was a fact and I have subsequently 
found out, now after the fact, that there was a vigorous 
dispute in the Intelligence Community, and one part of the 
community said that was absolutely not true, and therefore you 
can see the chagrin with which I approach this discussion.
    Dr. Kay. I understand, Senator.
    Chairman Warner. Thank you very much, Senator. Colleagues, 
I take note that our distinguished witness has been under the 
scrutiny of Congress since approximately 9:00 this morning when 
I first met with you in another setting and Senator Levin 
joined us at that setting. So I would suggest maybe just a few 
minutes and then we'll conclude what I believe has been a very 
thorough and broad-ranging series of questions and responses. 
Your responses are very forthright in my personal judgment.
    So, Senator Levin, if you'd like to start off, I'll wrap 
up.
    Senator Levin. Okay, thank you. Thank you again, Dr. Kay. 
Are you familiar with the Carnegie Endowment report?
    Dr. Kay. I'm familiar with it, Senator. I've not read it 
cover to cover.
    Senator Levin. Let me read you just a portion of it then on 
page 34. It has to do with the assessments before December 2001 
and after December 2001. ``Assessments prior to December 2001 
had voiced concerns and warned of intentions to restart weapons 
programs, but did not assert that any programs or weapons 
existed. Most were consistent with the 1998 intelligence report 
to Congress while UNSCOM inspectors were still in Iraq,'' and 
now I'm quoting that report, that 1998 report from this 
Carnegie report: ``After 4 years of denials, Iraq admitted to a 
defensive program resulting in the destruction of Al Hakam, a 
large biological warfare (BW) production facility Iraq was 
trying to hide as a legitimate biological plant. Iraq still has 
not accounted for over 100 BW bombs and over 80 percent of 
imported growth media directly related to future Iraqi 
production of thousands of gallons of biological agent. This 
lack of cooperation is an indication that Iraq intends to 
reconstitute its BW capability when possible.''
    That's the assessment prior to 2001. After 2001, the 
assessment was they have biological weapons in their 
possession, not that they intend to reconstitute its BW 
capability when possible, which is the prior assessment, but 
that after 2001, after November 11, in effect, they have 
possession, inventories, stockpiles of weapons of mass 
destruction. Do you see a difference between the before and 
after?
    Dr. Kay. Senator Levin, I don't think that is a fair--as my 
memory, and I don't have the documents in front of me, I do not 
think that is a fair characterization of the intelligence 
reports and judgments prior to 2001. I refer you again, if you 
go back to Secretary Cohen's testimony before this committee, 
Secretary Cohen in the Clinton administration was not referring 
to anthrax that might be reconstituted, produced in some 
reconstituted program, he was referring to actual weapons.
    Senator Levin. Which Iraq had at what point? We've gone 
back to at least look at his--the part that we're able to get 
on Secretary Cohen, which was an interview on a TV station.
    Dr. Kay. But there was also testimony.
    Senator Levin. It seems from this he's talking about what 
they had in the early 1990s and what we caught him with and 
what that can do, what that anthrax can do and what they 
destroyed, that's what he was talking about in that interview. 
Are you saying he came before this committee?
    Dr. Kay. My memory is it was this committee. It may not 
have been this committee.
    Senator Levin. But you're saying that Secretary Cohen said, 
in our judgment, they have anthrax, they are producing anthrax, 
and here, this bag of 5 pounds is what they can do? That's what 
you're saying today?
    Dr. Kay. My memory is that in holding that 5-pound bag and 
talking about how much destruction that could do, he made 
reference to Iraq having those capabilities.
    Senator Levin. Currently?
    Dr. Kay. That's my memory, sir, but you have the record, 
you have a staff behind you, I don't.
    Senator Levin. We'll check it, because it's pretty 
important because you're saying that Secretary Cohen said that 
they--the same thing basically as we were told immediately 
prior to the attack on Iraq, which is that they had possession 
of BW weapons and here's what 5 pounds can do. I'm not saying 
he didn't say that, by the way. I'm going to go back and check 
too. But you're now saying that we better check the record 
before----
    Dr. Kay. I'm saying that my memory is that that's what he 
said, but I always believe in checking the record.
    Senator Levin. Okay. We will surely do that to see if your 
memory's correct. But let me then also read to you something 
from the assessments on the BW. This is the report, this is the 
last Clinton administration report for the period January to 
June 2000 on BW, and I'm going to read you this paragraph and 
then I'm going to read you the report for the period of January 
to June by the Bush administration and I want to see if you 
think they're the same.
    Here's what the last Clinton administration report said: 
``In 1995, Iraq admitted to having an offensive BW program and 
submitted the first in a series of full, final, and complete 
disclosures that were supposed to reveal the full scope of its 
BW program. According to UNSCOM, these disclosures are 
incomplete and filled with inaccuracies. Since the full scope 
and nature of Iraq's BW program was not verified, UNSCOM 
assessed that Iraq continues to maintain a knowledge base and 
industrial infrastructure that could be used to produce quickly 
a large amount of BW agents at any time if needed.''
    Knowledge base and infrastructure that could be used to 
produce--now this is the report for the period January to June 
2002 of the Bush administration. During this reporting period, 
Baghdad continued to pursue a BW program. Continued to pursue a 
program. Do you consider those words to be the same as 
continuing to maintain a knowledge base and an industrial 
infrastructure that could be used to produce? You consider 
those to be the same assessments?
    Dr. Kay. I'm not sure they're terribly different.
    Senator Levin. Are they somewhat different?
    Dr. Kay. They're somewhat different. Quite frankly, your 
memory is better than mine. I'm not sure that is the total 
scope of what the Clinton administration had on the biological 
program at that point. I remember a more voluminous statement 
about it.
    Senator Levin. It is, it's far more. I'm trying to 
obviously--because you can't quote the entire--to pick out 
representative parts.
    Dr. Kay. I understand that, but in judging similarities and 
accuracies, selection is always a danger in any field.
    Senator Levin. It is, I agree, by anybody that attempts to 
communicate that's always a problem.
    Dr. Kay. Absolutely.
    Senator Levin. But what I would like you to do then, 
because you've made a representation here that these were the 
same assessments that were made by both the Clinton 
intelligence folks, and the Bush intelligence folks, that you 
go back and see whether or not in fact that is accurate.
    I've given you quotes and I can continue to show 
differences. The Carnegie report shows significant differences 
between intelligence. It's not so much Clinton/Bush, it's prior 
to September 11, after September 11. That's the key thing when 
intelligence at that point changed significantly in the 
analysis of the Carnegie folks. I would think that, since 
you're making a statement that it didn't, that you take a look 
at at least their assessment and the documentation that they 
provide that shows the significant shift in intelligence before 
and after September 11. Are you willing to do that?
    Dr. Kay. Senator Levin, I'm always happy to take homework 
assignments from you. I hope it comes with an address for one 
of those undisclosed locations. Quite frankly, after I get out 
of here, I'm going to tell Senator Warner I'm disappearing to 
an undisclosed location for a couple of weeks.
    Senator Levin. You're entitled to it.
    Dr. Kay. But I certainly will do that. It's a point well 
taken.
    Senator Levin. You're very much entitled to it. One other 
comment here. People have talked about France, Russia, and 
everybody else. This is a quote from Chirac, I don't know 
whether this is representative or not: ``I have no evidence 
that these weapons exist in Iraq,'' Chirac said. ``U.S. 
officials, however, say they are certain that Iraq has the 
weapons and insists that it must turn them over for destruction 
or face war.'' That's what his quote is in The Washington Post 
in February 2003. Now, maybe you have other information.
    Dr. Kay. There are other quotes from the French and from 
Chirac.
    Senator Levin. Where Chirac says they do have weapons?
    Dr. Kay. Yes.
    Senator Levin. Okay. That's just one quote. Russia, 
however, said that they did not have, or that they had not seen 
undeniable proof of Iraqi arms programs or terrorist ties. 
That's a quote we have in the Associated Press, maybe that's 
not accurate or representative. Do you know whether Russia----
    Dr. Kay. I don't--the Russian intelligence I don't have on 
the tip of my tongue unless----
    Senator Levin. All right. Have you been asked by the 
intelligence, by the CIA, for whom you were working until a 
week ago, I believe, whenever.
    Dr. Kay. That's correct.
    Senator Levin. Have you been asked to give a final report 
of your views?
    Dr. Kay. I did a final briefing out for the DDCI and the 
DCI of what I found. It was an oral briefing. It lasted a 
substantial portion of a day. I think they fully understand 
what I concluded in my report at that point, yes.
    Senator Levin. Do you know whether or not they made notes 
of your briefing?
    Dr. Kay. There were note-takers in the room but I don't 
know what----
    Senator Levin. I think we either, and it's not up to me, 
I'm not the chairman, but it seems to me it's important for the 
history and for the future that we have your views in a formal 
report. You didn't give us written testimony today, it was just 
a couple days that you had the invitation of the chairman to 
come here, so I'm not at all critical, by the way, of that, 
believe me. I'm not critical of the chairman, I'm not critical 
of you, either one. I'm glad you're here.
    But I do think it's important that we get your views, in 
some kind of a formal, cohesive way because they're valuable to 
us, we've obviously followed your views very carefully, the 
country has. It seems to me in these circumstances that you 
should put, the way you want to say it, your views, for the 
record, for the Nation, for us, even though we're not in the 
middle of an inquiry in this committee, I wish we were frankly 
but we're not, I'm trying to do the best I can as ranking 
member, but the Intelligence Committee is, so perhaps they 
would ask you. I can't ask on behalf of Senator Roberts either.
    But in any event, if asked, by either our chairman or by 
Senator Roberts, would you be willing to provide your final 
report, on the way out?
    Dr. Kay. If asked by those two Senators, and certainly the 
senior Senator from the Commonwealth of Virginia where I live, 
my general policy, as I told Senator Warner when he asked me to 
appear here, is never to say no to Senator Warner. There may a 
point in my life when I decide that's unwise, but I have not 
reached that point yet.
    Senator Levin. Most of us are in the same position. We 
don't say no to Senator Warner as a matter of fact. Okay, 
that's then up to those two Senators----
    Chairman Warner. I think that you raise an interesting 
point and I've given it some consideration and I will discuss 
it with our distinguished witness, but it seems to me it could 
well be done in the context of your commenting on the next 
interim report that would be forthcoming.
    Dr. Kay. I leave it to you.
    Senator Levin. One other question that I would hope the 
chairman would take under advisement. That is that we ask the 
CIA if they have taken notes of a day-long debrief that they 
share those notes with us. Your comments here obviously are 
significant, your comments here period. Your statement in the 
New York Times has been read by, I'm sure, not just millions of 
New York Times readers but by every member of this committee 
and their staff, probably more than once. That's how 
significant those views are, so I would think that we ought to 
take full advantage at least of the notes of the CIA at a 
minimum that they took of a day-long debrief.
    Again, I close with my statement of thanks for your 
willingness to come as a private citizen and to share your 
opinions with the committee and with the Nation.
    Chairman Warner. Thank you, Senator Levin. Do you have any 
final comment? I would simply ask one last question. I think 
there may be an omission in the record that should be plugged. 
Any evidence with regard to participation by either Saddam 
Hussein or his principal henchmen in the WMD sharing with al 
Qaeda or any other terrorist organizations?
    Dr. Kay. There's no evidence that I can think of that I 
know of. This was obviously an investigative target. There may 
well have been evidence produced since I left or will be by the 
time of the March--it's certainly something that has a great 
deal of attention.
    Chairman Warner. Thank you. The hearing will now be 
concluded with my, again, expression of appreciation to you and 
your very lovely wife, who made it possible for you to be here 
today.
    Dr. Kay. Thank you very much. I'll convey that.
    Chairman Warner. We are adjourned.
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Robert C. Byrd
                        iraq survey group funds
    1. Senator Byrd. Dr. Kay, Congress has appropriated very large sums 
of money to the search for Iraq's weapons of mass destruction. In April 
2003, Congress appropriated $300 million for the search, and in 
November 2003, Congress approved another substantial amount of funds, 
the exact amount of which is classified. How much of these funds have 
been spent to date?
    Dr. Kay. As I have now left U.S. Government service, I no longer 
have access to financial data for the ISG and this question should be 
directed to the Department of Defense as the agency that controlled ISG 
finances.

    2. Senator Byrd. Dr. Kay, do you have any estimate of how much it 
will take to complete the ISG's mission later this year?
    Dr. Kay. The question of how much time will be required to complete 
ISG's mission depends upon what that mission is, the resources that 
will be made available for that mission/missions, and the security 
environment within Iraq which greatly impacts the pace of ISG's work.

    3. Senator Byrd. Dr. Kay, you have said that the work of the ISG is 
about 85 percent complete. Does the ISG still require that huge amount 
of funds if its work is so close to completion?
    Dr. Kay. I believe that about 85 percent of the work necessary to 
understand the status of Iraq's WMD programs at the time of the war, 
and particularly to answer the question as to whether they had large 
stockpiles of WMD, has been carried out. I do not believe that 
completing that work will require ``huge'' amounts of funds, but a 
deterioration of the security environment in Iraq and any greater use 
of contractor personnel to replace the Government employees used during 
my period in Iraq could substantially increase the cost.

    4. Senator Byrd. Dr. Kay, you spoke at today's hearing about the 
diversion of personnel away from the ISG to purposes not closely 
related to the search for weapons of mass destruction. Do you believe 
that funds have been, or will be, diverted from the ISG to carry out 
activities unrelated to its charter?
    Dr. Kay. As the charter of the ISG has been changed from when I 
took over in June, I believe that any diversion of funds will be 
related to the new charter of ISG as promulgated by the Department of 
Defense.

    [Whereupon, at 1:49 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
